<html>
<title> - 9-1-1 AND VoIP</title>
<body><pre>[Senate Hearing 109-690]
[From the U.S. Government Printing Office]



                                                        S. HRG. 109-690
 
                             9-1-1 AND VoIP

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 1, 2005

                               __________


    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

30-555 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Hon. Conrad Burns, U.S. Senator from Montana     1
Statement of David Jones, President, National Emergency Number 
  Association (NENA).............................................     3
Statement of Jeffrey Citron, Chairman and CEO, Vonage............    10
Statement of Wanda McCarley, President-Elect of the Association 
  of Public-Safety Communications Officials-International (APCO).    13
Statement of Greg Rohde, Executive Director, E-911 Institute.....    16
Statement of George Heinrichs, President and CEO, Intrado........    22
Statement of Janet Kelly, Director, Department of Administration, 
  State of Montana...............................................    29
Statement of Jeremy Ferkin, General Manager, CenturyTel, Inc.....    32
Statement of William Squires, Sr. Vice President and General 
  Counsel, Blackfoot Telecommunications Group....................    36
Statement of Greg Jergeson, Chairman, Public Service Commission 
  of Montana.....................................................    39

 
                             9-1-1 AND VoIP

                              ----------                              


                      THURSDAY, SEPTEMBER 1, 2005

                               U.S. Senate,
                Committee on Commerce, Science, and
                                            Transportation,
                                                   Great Falls, MT.
    The Committee met, pursuant to notice, at 1:30 p.m. at the 
Great Falls Civic Center, Hon. Conrad Burns, presiding.

            OPENING STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. We'll call the Committee to order, and this 
is a Committee of one today, I see. If I've got the vote, we'll 
go ahead and pass this bill, and let's do away with the 
hearings.
    But we want to welcome you all to this field hearing on 
Voice Over IP and E-911. We thank you for coming today. It's 
nice to have this, and a lot of our friends to be welcome to 
the Big Sky Country. This is really the last best place, and we 
don't need anyone out here in the state to tell us so, or 
should we try to control our words and the way we feel about 
Montana. I think I might need to place a call to the Copyright 
Office once I go back to Washington, however. We're arguing 
over, ``The last best place.'' I don't think it's going to go 
inside the beltway.
    It's not often that we get to do official business, Senate 
business here in Montana, but when we do, I'm always glad to 
welcome folks from around the state to take part. I find the 
people have a lot more sense outside the beltway, and 
Washington D.C. continues to be one of the logic-free zones of 
the country. So I welcome all of the people from Great Falls 
and around the state who are here today, and I'd also like to 
thank the city of Great Falls for making this great facility 
available to us today for this hearing.
    Today's hearing is on a subject near and dear to me, 
emergency communication systems to first responders, making 
sure that they have access to the latest technologies that they 
need: 9-1-1 and enhanced 9-1-1 system in Voice Over Internet 
Protocol Services. We call that VoIP, Voice Over Internet.
    That's quite a mouthful in itself. But it only describes 
the latest challenge in what is truly a simple and necessary 
matter of public policy, that our Nation's communications 
infrastructure, as it moves forward with technological change 
and new business models, must incorporate universal access to 
9-1-1 and emergency services as it does.
    A few years ago, with this important goal in mind, we set 
up the Congressional E-911 Caucus, which takes a leading role 
in identifying issues of pressing concern to public safety and 
the community, and helping us in Congress to understand what 
needs to be done, and what should be done to ensure that the 9-
1-1 system is up to date, and responsive as it needs to be.
    New technologies such as Voice Over IP are beneficial to 
telecom carriers, businesses, and consumers alike. My 
philosophy is that we should not do anything in Congress that 
would harm or impede the deployment of beneficial technologies.
    But at the same time, it is clearly in the public interest 
for the Nation's emergency response infrastructure, including 
over 6,000 Public Safety Access Points, or PSAPs as we call 
them, to be included in the technological advances. And 
although they clearly understand the need to move forward, the 
PSAPs do not always have the resources or incentives to move 
quite as quickly as the private sector does. I think we in 
Congress can help all the affected stakeholders to achieve that 
common goal.
    With that in mind, we worked on the ENHANCE 9-1-1 Act, 
which the President signed into law last December, that will 
provide matching grants to PSAPs that upgrade their system to 
receive enhanced 9-1-1 data from mobile phones, which is the 
location and the number of the caller, so that first responders 
can get to them the same way they get to the addresses of the 
landline callers, or the hard wire, as we call them. I hope to 
get full funding for that program this year.
    But today we are here to talk about VoIP, and its services, 
what the best way might be for them to include 9-1-1 and E-911 
in their services. Voice Over Internet Protocol services are 
growing dramatically. There are currently over three million 
Voice Over IP subscribers in the United States, with over 25 
million expected in the next five years. I hope we're closer to 
that number than when we estimated cell phone users in 2000 
when we passed the 1996 Act.
    But we know that those services are minimally intrusive for 
providers and ensure subscribers that they have access to 9-1-1 
service as they expect when they dial their phone.
    It's important that we move quickly. There are a few well 
publicized cases of people actually dying earlier this year 
when they dialed 9-1-1 from a VoIP phone, and could not get 
through to 9-1-1 call centers. That kind of thing is shocking. 
It is also unacceptable.
    With these stories in mind, last May the FCC issued an 
order making 9-1-1 and E-911 mandatory for VoIP providers, and 
requiring that incumbent Bell providers make access to the 9-1-
1 infrastructure available to those companies.
    In Congress on the same day, we introduced bills in the 
House and the Senate to do basically the same thing. I'm the 
sponsor of the Senate bill, and would like to thank my fellow 
Senators, Bill Nelson of Florida, and Hillary Clinton of New 
York, both Democrats, for their leadership as well on this 
issue. Public safety is not a partisan issue, and I'm proud to 
work across the aisle with Democrats if it will help save lives 
of Americans all across this country.
    I understand Senator Nelson has inserted a statement in the 
record, and we're going to accept that by unanimous consent. So 
ordered. But being as he couldn't be here today, and there's 
good reason for that. So I would like to make note of that.
    So I look forward to hearing testimony today on the state 
of 9-1-1 and VoIP services in general, the FCC order, and the 
bill that we will have before the Senate. I hope each one of 
you is going to tell us what the FCC order does right, and what 
it does wrong, and how the bill might be improved to fix some 
of the things that are especially difficult for companies to 
do.
    I know you won't be shy in telling me what the problems 
are, but you should also be aware that this is a problem which 
we need to fix, and fix it very soon. So I look to you for your 
expertise in how we accomplish this great job.
    Now, it gives me a great deal of pleasure to welcome to the 
table today our witnesses, and then we will start the dialogue. 
First of all, we have David Jones, president of NENA--and thank 
you, David, for your kind words today--Jerry Citron of Vonage, 
co-founder, and Chairman, and CEO; Wanda McCarley, APCO; and 
Greg Rohde, of course, you heard from today on E-911; and 
George Henry, CEO and Chairman of the Board of Intrado. So we 
welcome all of these folks. And David, we'll start off with 
you. Thank you for coming today.

STATEMENT OF DAVID JONES, PRESIDENT, NATIONAL EMERGENCY NUMBER 
                       ASSOCIATION (NENA)

    Mr. Jones. Thank you, Senator Burns. Thank you for 
providing me the opportunity to appear before you today. Again, 
my name is David Jones, and I currently serve Spartanburg, 
South Carolina as the Director of Emergency Services. I'm also 
the President of the National Emergency Number Association, an 
organization consisting of more than 7,000 members in 46 
chapters across the U.S. and Canada. Additionally, I serve as 
the Vice Chair of the Federal Communications Commission's 
Intergovernmental Advisory Committee representing the interests 
of local government and public safety.
    Senator, I applaud your leadership, as well as that of your 
colleagues and staff, in bringing the 9-1-1 community to the 
table for these vital discussions about the future of public 
safety communications. The 9-1-1 community has known no greater 
friend than you, Senator, and we sincerely thank you for your 
continued leadership that you have provided on 9-1-1 issues 
over the years.
    I'm here today to testify in support of the IP-Enabled 
Voice Communications in Public Safety Act of 2005. We applaud 
the recent actions taken by the FCC in adopting its order on E-
911 requirements for IP enabled service providers, but NENA 
believes Congressional action in this area is needed as well. 
As legislation to update our communications law is drafted, 
NENA encourages Congress to include provisions that address 
critical 9-1-1 and public safety concerns. The IP Enabled Voice 
Communications and Public Safety Act provides a foundation for 
such action.
    As 9-1-1 in emergency communications continues to advance, 
it is critical that communications regulation evolve in a 
parallel fashion, and is flexible enough to accommodate future 
advancements that have yet to be considered. Today IP is where 
we were with wireless some ten years ago, and industry and 
technology are advancing at a rapid rate with unlimited 
promise, facing the challenge, and regulatory requirement to 
provide E-911 to all customers.
    Even today, though, after more than ten years of discussion 
and debate, wireless E-911 is available in less than 50 percent 
of the PSAPs in the U.S. We must not allow history to repeat 
itself with Voice Over IP.
    Last June I testified before this Committee supporting the 
need for targeted Federal regulation for E-911 and VoIP, 
suggesting that this would most appropriately be handled by the 
FCC. Since then, the Commission has acted, and we applaud their 
leadership. Now we must work together at all levels of 
government and with industry to plan for a nationally 
standardized and coordinated approach to deployment of Voice 
Over IP E-911.
    Too often in the past we have tried to draft new laws and 
regulations for 9-1-1 requirements for innovative technologies 
as they are introduced, including wireless VoIP. In recognition 
of this issue earlier this month, NENA joined APCO and several 
other groups in a letter asking Congress to include a clear 
statement on the jurisdiction of the FCC to establish rules 
requiring providers of interconnected voice telecommunications 
services to provide their customers with E-911 capabilities.
    We certainly agree that this is an important topic to 
consider, given today's 9-1-1 system, but NENA asks Congress to 
go a step further. NENA believes that regardless of the service 
classification, telecommunications information, or otherwise, 
if a service provides a communications capability, in which a 
customer can reasonably expect to be able to reach a public 
safety answering point when dialing 9-1-1, whenever the PSTN, 
an IP network, or some other yet to be identified path, the FCC 
should have the clear regulatory authority to address the 9-1-1 
aspects of these services.
    This is not to suggest that the FCC should enact regulation 
to cover all potential service types, but the FCC should have 
sufficient authority if regulation is deemed necessary. 
Congress does not have to continually go back and update laws 
based on every new communications technology or service that 
need 9-1-1 access.
    Therefore, we support the provisions in the IP-Enabled 
Voice Communication and Public Safety Act that authorizes the 
FCC to regulate in the area of IP-enabled voice communications, 
but we ask Congress to extend that authority to any service 
that provides a communications capability in which a customer 
can reasonably expect to reach a PSAP when dialing 9-1-1.
    Funding for IP-enabled 9-1-1 services in the development of 
the next generation 9-1-1 systems is perhaps most important 
issue of 9-1-1 today. The public safety community is extremely 
concerned by the need and growing impact of VoIP on the loss of 
conventional service fees and surcharge revenue, and the 
uncertainties of any requirement to replace that critical 
operational funding stream in the VoIP environment.
    Thus, in addition to establishing clear FCC regulatory 
authority, it is essential that Congress do nothing to 
compromise state and local authority to impose and collect 9-1-
1 fees on all services where a customer has a reasonable 
expectation of being connected to 9-1-1, again, regardless of 
the type of technology. As technology evolves, the 
classification of service or technology type should not have an 
effect on the ability of state and local government to address 
those issues.
    Congress should also consider ways to facilitate state and 
local funding of critical 9-1-1 emergency communications 
systems. Last year Congress effectively acted in this regard by 
passing the ENHANCE 9-1-1 Act of 2004, and authorizing up to 
$250 million per year in grants for 9-1-1 system upgrades. 
However to date, no monies have been appropriated to fund such 
a grant. NENA implores Congress to fund the ENHANCE 9-1-1 Act 
of 2004. The continued success and sustainability of our 9-1-1 
system will greatly benefit from such action.
    The IP-Enabled Voice Communications and Safety Act of 2005 
requires each entity with ownership or control of a 9-1-1 
infrastructure, known commonly as 9-1-1 system service 
providers, to provide requesting IP-enabled service providers 
access to the equipment, databases, network, and other 
necessary capabilities on a non-discriminatory basis. The bill 
also provides immunity from liability to the same extent as 
provided to local telephone exchange companies for providers of 
IP-enabled 9-1-1 service.
    Additionally, the bill provides liability protection to the 
users of such services, as well as liability protection for 
PSAPs to the same extent they currently have for non-IP-enabled 
service.
    On the issue of liability parity, the bill mirrors the 
language granted to wireless carriers, users of wireless 
service, and PSAPs that is contained in the Wireless 
Communications Act of 1999.
    It is important to note that the Wireless Act of 1999 was 
passed before the widespread deployment of Phase I and II, an 
action that was deemed critical and applauded by both the 9-1-1 
community and industry.
    NENA believes it is also important to have liability parity 
for IP-enabled services enacted into the law before the quickly 
approaching 120-day VoIP E-911 deadline of November 28th.
    Past experience in the deployment of E-911 has shown that a 
lack of legal clarity on important topics, such as liability 
parity and nondiscriminatory access to E-911 capability, can 
lead to a delay in the provision of E-911 service.
    Therefore, NENA wholeheartedly supports the provisions, as 
we believe they are essential to ensure the timely deployment 
of E-911 for IP-enabled services.
    Finally, NENA believes that planning now for the future 9-
1-1 system is of paramount importance, and fully supports 
Section 3 of the IP-Enabled Voice Communications Act. We hope 
the telecom reform will be done this year, and include the 
important 9-1-1 provision identified in my testimony.
    However, past experience has shown this type of reform can 
become bogged down in negotiations, and take longer than 
expected to complete. Should this happen, NENA believes it is 
very important that the 9-1-1 provisions discussed here be 
included in the stand-alone bill, such as a slightly modified 
version of the IP-Enabled Voice Communication Act, and 
considered by Congress before the session ends this year.
    To conclude, NENA fully supports each of the provisions in 
this act as they pertain to VoIP 9-1-1, but asks Congress to 
broaden the scope of the bill to include any service that 
provides communications capability in which a customer can 
reasonably expect to reach a PSAP when dialing 9-1-1. Thank 
you.
    [The prepared statement of Mr. Jones follows:]

  Prepared Statement of David F. Jones, President, National Emergency 
                       Number Association (NENA)

    Mr. Chairman and Members of the Committee, thank you very much for 
providing me the opportunity to appear before you today. My name is 
David Jones and I'm a nationally certified Emergency Number 
Professional (ENP), serving Spartanburg County, South Carolina as the 
Director of Emergency Services.
    I'm also the President of the National Emergency Number Association 
(NENA), an organization consisting of more than 7,000 members in 46 
chapters across the U.S. and Canada representing public officials, 
fire, EMS, law enforcement, equipment and service providing vendors of 
the 9-1-1 community. Additionally, I serve as the Vice Chair of the 
Federal Communications Commission's (FCC) Intergovernmental Advisory 
Committee (IAC), representing the interests of local government and 
public safety. I am also a longtime member of the Association for 
Public Safety Communications Officials (APCO) International.
    Today I appear before the Committee on behalf of NENA, but also 
standing on the shoulders of the thousands of 9-1-1 professionals in 
America who work tirelessly to help those people who dial 9-1-1 in 
times of need. Admirable colleagues, like those on my team in 
Spartanburg, who continue to find ways to get the job done regardless 
of the technical obstacles or challenges of modern communications in 
our Public Safety Answering Point (PSAP). National leadership, like 
that of Senators Burns and Clinton, as well as Representatives Shimkus 
and Eshoo, co-chairs of the Congressional E-911 Caucus. I thank all of 
you for your tireless work to make our 9-1-1 system work like it 
should.
Opening Comments
    Mr. Chairman, I applaud your leadership, as well as that of your 
colleagues and staff in bringing the 9-1-1 community to the table for 
these vital discussions about the future of public safety 
communications. The 9-1-1 Community has known no greater friend than 
Senator Conrad Burns. I sincerely thank you for the continued 
leadership you have provided on 9-1-1 issues over the years. NENA 
represents the national 9-1-1 community as the ``Voice of 9-1-1'', but 
if there is truly one voice of 9-1-1 in the halls of Congress, surely 
it is Senator Conrad Burns.
    In the late 1990's, Senator Burns led an effort to recognize `9-1-
1' as the universal number for emergency calling and to ensure the 
deployment of wireless E-911. Enacted by Congress, ``The Wireless 
Communications and Public Safety Act of 1999'' is our foundation for 
greater 9-1-1 policy goals.
    Building off of the success of that legislation, Senator Burns 
helped found the E-911 Caucus, along with fellow co-chairs Senator 
Hillary Clinton, Congressman John Shimkus and Congresswoman Anna Eshoo, 
a group whose leadership on 9-1-1 issues has been unparalleled. Most 
recently Senator Burns, along with the other E-911 Caucus co-chairs, 
successfully led the charge to pass the ENHANCE 911 Act of 2004. Signed 
into law by President Bush on December 23, 2004, the ENHANCE 911 Act 
authorized the creation of a national 9-1-1 Implementation and 
Coordination (ICO) office and up to $250 million per year for grants to 
upgrade enhanced emergency communications services. This was monumental 
legislation for 9-1-1 and I thank Senator Burns and the E-911 Caucus 
co-chairs for their efforts this year to secure an appropriation to 
fund the provisions in that law.
    Thank you Senator Burns, and fellow E-911 Caucus co-chairs, for 
your continued leadership and support of 9-1-1.
    I am here today to testify in support of the IP-Enabled Voice 
Communications and Public Safety Act of 2005. We applaud the recent 
actions taken by the FCC in adopting its Order on E-911 requirements 
for IP-enabled service providers, but NENA believes Congressional 
action in this area is needed as well. We appreciate the need to enact 
communications legislation that encourages innovation and the 
widespread deployment of broadband service which we believe will not 
only provide benefits to the general public, but will also have an 
enormous positive impact on public safety communications. As 
legislation to update our communications laws is drafted, NENA 
encourages Congress to include provisions that address critical 
9-1-1 and public safety concerns focusing on today's needs and taking 
into consideration the progression towards the next generation 9-1-1 
and emergency services system. The IP-Enabled Voice Communications and 
Public Safety Act provides a foundation for such action.
    In my statement today, I will refer to our vision, our needs and 
respectfully make recommendations to improve the legislation before the 
Committee, emphasizing fundamental points for NENA, 9-1-1 and IP-
enabled services.
The Changing Landscape of 9-1-1
    Since its inception, the 9-1-1 system has been THE first responder 
in times of individual and mass emergencies. Every day, Americans call 
9-1-1 at the time of their greatest need. Today we are averaging over 
200 million 9-1-1 calls per year. Ninety-six percent of the Nation's 
geography is covered by at least some basic 
9-1-1; ninety-nine percent of the American public has access to 9-1-1. 
For the caller and the public, the successful completion of a 9-1-1 
call can mean the difference between danger and security, injury and 
recovery, or life and death. The ability to call for help in times of 
an emergency is not `voluntary'--it's mandatory.
    Yet the advancement of communications and network technology is 
quickly blurring the lines of familiarity in the world of emergency 
communications and 9-1-1. No longer can we discuss 9-1-1 solely in the 
context of the public switch telephone network (PSTN). No longer can we 
discuss the routing of 9-1-1 calls as being dependent on the use of the 
existing analog, circuit switched telephone network. In fact, just last 
week NENA introduced for public comment its first ever VoIP 9-1-1 
standard. NENA started with ``One nation--One number'', and now we add, 
``any device, from anywhere, at anytime.'' As 9-1-1 and emergency 
communications continue to advance, it is critical that communications 
regulation evolves in a parallel fashion and is flexible enough to 
accommodate future advancements that have yet to be considered.
    Truly the future is happening now. Already, over fifty million 
Americans are using some form of broadband Internet access offering 
exciting new communications possibilities. Voice over IP is coming. In 
many places it's already here. IP-enabled services are dynamic, 
competitive, innovative and most of all, an opportunity to improve all 
of our communications systems. Better, faster, cheaper technology and 
communications service is vital to American consumers and business, but 
it may prove even more vital for our public safety and security.
    With our excitement for IP-enabled services comes some trepidation. 
Today, IP is where we were with wireless ten years ago; an industry and 
technology advancing at a rapid rate with unlimited promise facing the 
challenge, and regulatory requirement, to provide E-911 to all 
customers. Even today, after more than ten years of discussion and 
debate, wireless E-911 is available in less than fifty percent of the 
PSAPs in the United States. We must not allow history to repeat itself 
with VoIP. It is critical that all parties, public and private, come 
together in the spirit of cooperation, collaboration and good faith, to 
plan a national deployment for VoIP. To make this happen will require a 
good deal of leadership at all levels of government, starting with the 
United States Congress.
National Plan for 9-1-1 and IP-Enabled Communications Services
    Last June I testified before this Committee supporting the need for 
targeted Federal regulation for E-911 and VoIP, suggesting that this 
would most appropriately be handled by the FCC. Since then the 
Commission has acted and we applaud their leadership. Now we must work 
together at all levels of government and with industry to plan for a 
nationally standardized and coordinated approach to the deployment of 
VoIP E-911.
    To be effective and meaningful, E-911 must be included in a wide 
range of VoIP and IP-enabled products and services. This includes both 
voice and data, whether serving a fixed location, or nomadic locations 
that may change from day to day, or operating wirelessly in a much 
greater area over Wi-Fi or Wi-Max networks for example. Each of these 
service types offers different challenges.
    The technical development of 9-1-1 must be convergent with its 
policy direction. Today's regulations for 9-1-1 are fragmented, 
consisting of a jurisdictional patchwork of rules for various types of 
communications, providers and stakeholders Wireline issues are 
regulated by states. Wireless issues are regulated by the FCC. 9-1-1 
public safety answering points are often local. Consumer expectations 
are national. VoIP can be international.
    9-1-1 needs to be treated as an integrated public safety service, 
part of a larger whole for our safety and national security. This 
concept has been recently tested with the deployment of wireless E-911. 
Through this process, we've learned some important lessons in 
implementing new technologies with E-911 systems: (1) E-911 must be 
treated as an inter-dependent overall system; (2) coordination is very 
important; (3) Federal leadership is necessary for national 
implementation and resolution of issues.
    In our experience, voluntary consensus development, within 
reasonable timeframes, of requirements and rules for technology and 
service integration provides the best results. To enable a coordinated 
national deployment of VoIP it is very important that Congress and the 
FCC provide directive influence to encourage the development of 
national standards and require the early adoption of recognized 
national standards when they become available. Federal rules and 
regulations should provide reasonable guidelines to enable a path 
forward but should allow the appropriate standards processes to 
determine the specific methodologies to meet such guidelines. In doing 
so, the FCC and Congress will contribute needed leadership toward the 
facilitation of a nationally-coordinated effort in delivering IP-
enabled E-911 service.
    NENA strongly encourages both the FCC and Congress to work closely 
with the joint NHTSA/NTIA national 9-1-1 Implementation and 
Coordination Office once established. We believe the ICO should manage 
all 9-1-1 specific functions at the Federal level. The ICO is uniquely 
positioned to coordinate and provide guidance to multiple ongoing 9-1-1 
efforts at the national, state and local level. This will ensure that 
individual efforts are not occurring in a void and are not duplicated 
or at cross purposes.
Regulatory Authority
    Too often in the past we have tried to draft new laws and 
regulations for E-911 requirements for innovative technologies as they 
are introduced, including wireless and VoIP. Recognizing this issue, 
earlier this month NENA joined APCO and several other groups in a 
letter asking Congress to include a clear statement in any telecom 
reform language on the jurisdiction of the FCC to establish rules 
requiring providers of interconnected voice telecommunications services 
to provide their customers with E-911 capabilities.
    We certainly agree that this is an important topic to consider 
given today's 9-1-1 system, but NENA asks Congress to go a step 
further. NENA believes that regardless of the service classification--
telecommunications, information or otherwise--if a service provides a 
communications capability in which a customer can reasonably expect to 
be able to reach a PSAP when dialing 9-1-1, whether over the PSTN, an 
IP network or some other yet to be identified path, the FCC should have 
the clear regulatory authority to address the 9-1-1 aspects of those 
services.
    This is not to suggest that the FCC should enact regulations to 
cover all potential service types, but the FCC should have sufficient 
authority so that if regulation is deemed necessary, Congress does not 
have to continually go back and update laws based on every new 
communications technology or service needing 9-1-1 access. Therefore we 
support the provision in the IP-Enabled Voice Communications and Public 
Safety Act that authorizes the FCC to regulate in the area of IP-
enabled voice communications, but we ask Congress to extend that 
authority to any service that provides a communications capability in 
which a customer can reasonably expect to be able to reach a PSAP when 
dialing 9-1-1.
State Authority
    Funding for IP-enabled E-911 services and the development of the 
next generation 9-1-1 system is perhaps the most important issue for 9-
1-1 today. The public safety community is extremely concerned by the 
immediate and growing impact of VoIP on loss of conventional service 
fees and surcharge revenue, and the uncertainty of any requirement to 
replace that critical operational funding stream in the VoIP 
environment. We support the need for national direction from the FCC, 
just as we support cabinet-level attention to 9-1-1 issues through the 
national 9-1-1 Program Office.
    Thus, in addition to establishing clear FCC regulatory authority, 
it is essential that Congress do nothing to compromise state and local 
authority to impose and collect 9-1-1 fees on all services where a 
customer has a reasonable expectation of being connected to 9-1-1, 
again regardless of the type of technology. In addition to funding, 
there will be other state and local issues as well that are best 
addressed at that level, but it is clear that as technology evolves, 
the classification of service or technology type should not have an 
effect on the ability of state and local government to address those 
issues.
    Congress should also consider ways to facilitate state and local 
funding of critical 9-1-1 emergency communications systems. Last year 
Congress effectively acted in this regard by passing the ENHANCE 911 
Act of 2004 and authorizing up to $250 million per year in grants for 
9-1-1 system upgrades. However, to date no monies have been 
appropriated to fund such grants. NENA implores Congress to fund the 
ENHANCE 911 Act. The continued success and sustainability of our 9-1-1 
system will greatly benefit from such action.
    While ensuring that states have the authority to impose fees on 
VoIP services is important, NENA also acknowledges that a shift in the 
9-1-1 funding model may be needed as we move to the next generation IP-
enabled E-911 network. This subject is a main topic of the NENA Next 
Generation NG E-911 Program, a year long effort that is also addressing 
key next generation technical and operational 9-1-1 issues. All Program 
participants agree that until a clear solution is identified for the 
immediate and long term 9-1-1 funding problem, attention to the need 
for technological change and evolution of the E-911 system itself is 
difficult to achieve.
    It is important to add here that NENA continues to emphasize the 
necessity of state coordination in the deployment of E-911 services, 
regardless of service type. The importance of state coordination for 
wireless E-911 has been recognized by Congress through the Wireless 
Communications and Public Safety Act of 1999 and the ENHANCE 911 Act of 
2004. This has proven to be a valid position as states with a 
coordination entity are generally further along in the Phase II 
wireless E-911 deployment process. While recognizing that the delivery 
of 9-1-1 service is managed at the local level and that local PSAPs 
have an important role to play, Congress and the FCC should encourage 
coordination at the state level for the deployment of IP-enabled E-911 
services.
Non-Discriminatory Access to Capabilities and Liability Parity
    The IP-enabled Voice Communications and Public Safety Act of 2005 
requires each entity with ownership or control of 9-1-1 infrastructure, 
known commonly as E-911 system service providers (SSPs), to provide 
requesting IP-enabled service providers access to the equipment, 
databases, network and other necessary capabilities on a 
nondiscriminatory basis. The bill also provides immunity from liability 
to the same extent as provided to local telephone exchange companies 
for providers of IP-enabled 9-1-1 service. Additionally, the bill 
provides liability protection to users of such services as well as 
liability protection for PSAPs to the same extent they currently have 
for non-IP enabled services.
    On the issue of liability parity, the bill mirrors the language 
granted to wireless carriers, users of wireless service and PSAPs 
answering 9-1-1 calls that is contained in the Wireless Communications 
and Public Safety Act of 1999. It is important to note that the 
Wireless Act of 1999 was passed before the widespread deployment of 
Phase I and Phase II wireless, an action that was deemed critical and 
applauded by both the 9-1-1 community and industry. NENA believes it is 
also important to have liability parity for IP-enabled services enacted 
into law before the quickly approaching 120-day VoIP E-911 deadline of 
November 28, 2005.
    Past experience in the deployment of E-911 has shown that a lack of 
legal clarity on important topics, such as liability parity and non-
discriminatory access to E-911 capabilities, has led to a delay in the 
provisioning of E-911 service. Therefore, NENA wholeheartedly supports 
both of these provisions as we believe they are essential to ensure the 
timely deployment of E-911 for IP-enabled services.
Next Generation E-911
    As noted earlier, NENA believes that planning now for the future 9-
1-1 system is of paramount importance and is why we have launched the 
NG E-911 Program. NENA plans to release a comprehensive report on the 
findings and recommendations of that initiative in early 2006 and will 
communicate the results with Congress. Therefore, NENA fully supports 
section three of the IP-Enabled Voice Communications and Public Safety 
Act requiring the national 9-1-1 Implementation and Coordination Office 
to provide a plan for the migration from today's 9-1-1 system towards 
an IP-Enabled emergency network.
Timeframe for Action
    We hope that telecom reform will be done this year and will include 
the important 9-1-1 provisions identified here. However, past 
experience has shown that this type of reform can become bogged down in 
negotiations and take longer than expected to complete. Should this 
happen, NENA believes it is very important that the 9-1-1 provisions 
discussed here be included in a stand-alone bill, such as a slightly 
modified version of the IP-Enabled Voice Communications and Public 
Safety Act of 2005, and considered by Congress before the session ends 
this year.
Conclusion
    Our Nation's 9-1-1 system is a homeland security asset. Everyday 9-
1-1 callers are the eyes and ears of our defense. It is also a system 
that citizens depend on daily in times of need. Modern communications 
capabilities offer an opportunity to improve the system as we know it, 
but they also offer challenges. The 9-1-1 community must embrace and 
react to change quickly, to better serve the American public, industry, 
and the mobile consumer in all emergencies. We need help from Congress 
in doing so.
    NENA fully supports each of the provisions in the IP-Enabled Voice 
Communications and Public Safety Act as they pertain to VoIP E-911 but 
asks Congress to broaden the scope of the bill to include any service 
that provides a communications capability in which a customer can 
reasonably expect to be able to reach a PSAP when dialing 9-1-1.
    With some modifications, the legislation will make great 
contributions toward public safety and security. On behalf of thousands 
of NENA members, the 9-1-1 professionals and all involved in supporting 
their work, I thank you for your support and the opportunity to be here 
today.

    Senator Burns. Thank you. I forgot to announce--if you 
could keep your statements within five minutes--and your full 
statement will be made part of the record--it would certainly 
help us a little bit. But you're just such a nice fellow, and 
you had nice words for me, I decided to give you extra minutes.
    Jeffrey Citron, Vonage. He is the Co-founder, Chairman, and 
CEO of Vonage. Mr. Citron, thank you very much for coming 
today.

     STATEMENT OF JEFFREY CITRON, CHAIRMAN AND CEO, VONAGE

    Mr. Citron. Thank you. Good morning, Senator Burns, Members 
of the Committee. Thank you very much for the opportunity to 
appear here today. I'm Jeff Citron, CEO of Vonage Holdings 
Corporation. We are the leading provider of consumer and small 
business Voice Over IP or VoIP Services in the United States, 
which nearly one million people are using our service today. 
Vonage is at the forefront of this new emerging market, which 
has approximately 2.3 million users, and as such, we are 
quickly becoming a leader in E-911.
    As we speak, Vonage is building the first ever nationwide 
E-911 network designed for an all-IP environment. This new 
network will link hundreds of locally controlled selective 
routers, and thousands of public safety answering points across 
the country, allowing us to provide comprehensive service. This 
is a very serious undertaking. At Vonage, we are embracing this 
challenge as a critical partner in the Nation's E-911 system, 
as we blend voice and data into exciting new offerings.
    Unfortunately, we are also confronting long standing 
technical, operational, and competitive barriers, as we try to 
connect to a system that is nearly obsolete. Vonage's leading 
challenge is deploying enhanced 9-1-1 Internet phone service 
for all our users as quickly as possible. There is no higher 
priority within our organization today. Vonage demonstrated 
commitment in this area by becoming the first mobile VoIP 
provider to adopt a basic 9-1-1 solution. We have continued 
this commitment by offering the first nomadic Voice Over IP E-
911 solution in this country.
    Mr. Chairman, I'm here today to make three points. First, 
Vonage is running very hard and fast to build the best E-911 
system that is possible. Second, as an industry, Internet phone 
service providers face a number of challenges trying to deploy 
E-911. And third, I would like to highlight what assistance 
Congress can lend to ensure the industry deploys a functioning 
enhanced 9-1-1 service for all of our customers and their 
communities.
    To date, Vonage has been working diligently with many 
companies, along with public safety officials, to architect a 
solution that works well for the entire industry, as well as 
our customers. Beginning at the grass roots levels with public 
safety officials, Vonage is already offering enhanced 9-1-1 
service in New York City and Rhode Island, and in New York City 
alone, we have fielded thousands of successful E-911 calls.
    Despite this great progress thus far, significant 
challenges do remain. For instance, the geographically based 
numbering system of the original 9-1-1 network is meaningless 
to Internet-based communications. The old 9-1-1 system required 
that all calls be local. If a citizen in Montana tried to place 
a 9-1-1 call with a Montana phone in Washington D.C., the old 
9-1-1 system would have rejected this call.
    In order to accommodate that mobility, wireless carriers 
patched up the old network to allow for out of area 9-1-1 calls 
to go through, and this is the exact same solution we are 
trying to use for Internet phone calling.
    Furthermore, VoIP providers do not have access to all the 
elements necessary to create a comprehensive 9-1-1 solution. 
Such elements include access to selective routers in the Master 
Street Address Guide, also known as MSAG, as well as ``Pseudo-
ANIs,'' which we need to get calls from non-local phone 
numbers.
    And because there are no standards for implementation, let 
alone access to the elements, novel 9-1-1 architectures make it 
impossible to implement a uniform nationwide solution. Instead, 
service providers like Vonage are forced to deploy a patchwork 
of local solutions to meet the various needs of PSAPs and 
network owners. Implementation of the FCC's 9-1-1 obligation 
within 120 days is extremely challenging.
    We believe that a standardized approach giving VoIP 
providers access to these elements would accelerate our 
deployment, and create a uniform solution for the entire 
country.
    Finally, Congressional action and authority can help speed 
Voice Over IP 9-1-1 deployment in several key areas. Currently 
Voice Over IP providers do not have the same liability parity 
with wireline or wireless operators. Vonage is not protected by 
the existing law in the same way that other carriers are. 
Therefore, every time we send a call to the 9-1-1 network, we 
are putting our business at risk should there be an 
unforeseeable network failure or mishap.
    Additionally, in order to comply with obligations mandated 
by the FCC 9-1-1 order, Congress may need to grant VoIP 
providers access to the network elements necessary to complete 
the enhanced 9-1-1 call. The 9-1-1 network is a public trust, 
and should not be used as a competitive lever or barrier.
    In conclusion, Mr. Chairman, Vonage strongly believes it's 
good policy for our customers and for the country for anyone 
using Voice Over IP to be able to get help when they need it by 
dialing 9-1-1. We also commend the FCC for the decisive action 
mandating a Voice Over IP E-911 rollout. We now need Congress 
to act to ensure VoIP providers have the tools that are 
necessary to meet that mandate.
    We enthusiastically support the IP-Enabled Voice 
Communications and Public Safety Act of 2005, as a thoughtful, 
balanced piece of legislation that would ensure Voice Over 
providers can get access to the necessary technical elements, 
legal protections, flexibility, to create the best solution for 
our customers.
    I look forward to answering any questions that you might 
have, and thank you for the opportunity to speak here today.
    [The prepared statement of Mr. Citron follows:]

  Prepared Statement of Jeffrey Citron Co-Founder, Chairman, and CEO, 
                                 Vonage

    Good morning Senator Burns and Members of the Committee. Thank you 
for the opportunity to appear here today. I'm Jeffrey Citron, CEO of 
Vonage Holdings Corporation. We are the leading provider of consumer 
and small business Voice over Internet Protocol (VoIP) services in the 
United States, with nearly one million subscriber lines. Vonage is at 
the forefront of this new emerging market, which has approximately 2.3 
million users, and as such we are also quickly becoming a leader in E-
911, as we move to deploy the first ever nationwide 9-1-1 service. This 
will be the first 9-1-1 service designed for an IP environment, across 
hundreds of locally controlled Selective Routers and thousands of 
Public Safety Answering Points. This is a serious undertaking. And we 
at Vonage are embracing this challenge not just for our customers but 
as a partner in the Nation's E-911 system. As we move forward in this 
exciting time in 9-1-1, VoIP is helping turn the notion of traditional 
9-1-1 networking on its head. We are recognizing new opportunities to 
blend voice and data into exciting new offerings, but we are also 
confronting long-standing technical, operational and competitive 
barriers, as we try to connect to a system that all too often is 
obsolete and sheltered by old-fashioned telecom thinking.
    To that end, Vonage is leading the charge to deploy Enhanced 911 
Internet phone services for all of our users as quickly as possible. 
There is no higher priority within Vonage today. Vonage demonstrated 
commitment in this area by becoming the first mobile VoIP provider to 
adopt a basic 9-1-1 solution, and we will further this commitment by 
offering the first nomadic VoIP E-911 solution in this country.
    Mr. Chairman, I am here today to make three points. First, Vonage 
is running hard and fast to build the best 9-1-1 system possible. 
Second, as an industry, Internet phone providers face a number of 
challenges in trying to deploy Enhanced 911. These challenges are 
similar to those faced by wireless companies when they began offering 
E-911 services over ten years ago. Finally, I would like to highlight 
what assistance Congress can lend to ensure the industry deploys a 
functioning Enhanced 911 service for our customers and their 
communities.
    To date, Vonage has been working diligently with the technology 
companies, Bells, CLECs and public safety officials to architect a 
solution that works well for the industry and our customers. Working at 
the grassroots level with public safety officials, Vonage is already 
offering Enhanced 911 service in New York City and Rhode Island. In New 
York City alone, we have already fielded thousands of successful E-911 
calls. We recently signed a contract with SBC to gain access to the 9-
1-1 elements we need throughout their 13-state territory to begin 
offering E-911 in SBC's footprint. Vonage is also working with Level 3 
on a nationwide basis to use their existing network to route calls to 
the E-911 system. With our technology partners TCS and Intrado, 
Vonage's 9-1-1 solution enables calls to go to the right 9-1-1 
answering center even when our users change physical location. Perhaps 
most importantly, last month Vonage initiated an outreach program to 
begin a dialogue with the public safety community regarding our plans 
to implement a novel E-911 solution within a very short timeframe.
    Despite this great progress thus far, significant challenges 
remain. For instance, the geographically-based numbering system of the 
original 9-1-1 network is meaningless to Internet-based communications. 
The old 9-1-1 system required that all calls be ``local.'' If a citizen 
from Montana tried to place a wireless 9-1-1 with her Montana phone in 
Washington DC, the old 9-1-1 system would have rejected that call. In 
order to accommodate that mobility, we patched the network to allow for 
``dummy numbers'' to get those out of area 9-1-1 calls through. This is 
the exact same solution we're using for Internet phone calls, but in 
order to make it work for us, we need access to the same technical 
elements that wireless companies use.
    Furthermore, VoIP providers do not have access to all the elements 
necessary to create a comprehensive 9-1-1 solution. Such elements 
include access to selective routers and the Master Street Address Guide 
(MSAG), as well as ``Psuedo-ANI'' (dummy numbers) which we need to get 
calls from non-local numbers into the 9-1-1 system. And because there 
are no standards for implementation, let alone access to elements, 
novel 9-1-1 architectures make it impossible to implement a uniform 
nationwide solution. Instead, service providers like Vonage are forced 
to deploy a patchwork of local solutions to meet the various needs of 
PSAPs and network owners, making the implementation of the FCC's 9-1-1 
obligation within 120 days difficult if not impossible. We believe that 
a standardized approach giving VoIP providers access to these elements 
would accelerate our deployment and create a uniform solution for the 
entire country.
    Finally, Congressional action and authority can help speed VoIP 9-
1-1 deployment in several key areas. Currently, VoIP providers do not 
have liability parity with wireline or wireless operators. Vonage is 
not protected by existing laws in the same way other carriers are--
therefore every time we send a call into the 9-1-1 network we are 
putting our business at risk should there be an unforeseeable network 
failure or other mishap. Right now, the burden is singularly the VoIP 
provider's to bear should something go wrong.
    Additionally, in order to comply with the obligations mandated by 
the FCC's 9-1-1 Order, Congress may need to grant VoIP providers access 
to all the network elements necessary to complete an Enhanced 911 call. 
The 9-1-1 network is a public trust, and should not be used as a 
competitive lever.
    In conclusion Mr. Chairman, Vonage strongly believes it is good 
policy for our customers and the country for anyone using a VoIP 
application to be able to get help when they need it by dialing 9-1-1.
    We also commend the FCC for their decisive action in mandating an 
aggressive timetable for VoIP E-911 rollout. We now need Congress to 
act to ensure VoIP providers have the tools necessary to meet that 
mandate. We enthusiastically support the IP-Enabled Voice 
Communications and Public Safety Act of 2005 as a thoughtful, balanced 
piece of legislation that would ensure VoIP providers can get access to 
the necessary technology elements, legal protections and flexibility to 
create the best solution for our customers.
    I look forward to answering any questions you may have. Thank you.

    Senator Burns. Thank you very much. I've got a couple 
questions coming off that statement. Next we have Ms. Wanda 
McCarley, who is with APCO. Thank you for coming today.

STATEMENT OF WANDA McCARLEY, PRESIDENT-ELECT OF THE ASSOCIATION 
 OF PUBLIC-SAFETY COMMUNICATIONS OFFICIALS-INTERNATIONAL (APCO)

    Ms. McCarley. Thank you, Senator Burns, for the opportunity 
to appear at this hearing today to discuss the critical issue 
of Voice Over Internet Protocol services, and their impact on 
the provision of 9-1-1 service by our Nation's public safety 
answering points.
    I am the President-Elect of the Association of Public 
Safety Communications Officials International, known as APCO, a 
professional association of over 16,000 individuals who manage 
and operate public safety communications systems for state and 
local government agencies across our Nation. APCO has long been 
an active participant in FCC proceedings and Congressional 
actions concerning public safety communications, addressing 
both radio spectrum issues, and Enhanced 9-1-1 issues, that 
impact the operational requirements of PSAPs, and the ability 
of emergency personnel to respond quickly and accurately to 9-
1-1 calls.
    I am also the operations and training manager for the 
Tarrant County 9-1-1 District in Fort Worth, where I work day 
to day on the challenges facing PSAPs.
    APCO has long been deeply concerned with the ability of 
PSAPs to respond effectively to 9-1-1 calls made through Voice 
Over IP providers. Early on, there were problems with Voice 
Over IP calls being routed to the wrong PSAP, in some areas to 
PSAPs in distant states. Some Voice Over IP providers adopted a 
strategy of routing 9-1-1 calls to PSAPs' ten-digit emergency 
or administrative numbers. However, these administrative 
numbers are not usually answered by trained 9-1-1 call takers. 
Indeed calls to these administrative numbers often go to voice 
mail systems with a taped message informing callers to hang up 
and dial 9-1-1 if this is an emergency.
    Unfortunately, that inability to get through to a 9-1-1 
call taker from a Voice Over IP phone has led to dangerous 
delays in dispatching emergency personnel, and as described in 
recent testimony before the FCC, tragic, and perhaps avoidable 
deaths in certain instances.
    In May, the FCC addressed this problem with firm but fair 
rules to ensure that Voice Over IP 9-1-1 calls will be 
delivered to the correct PSAPs, with the location information 
necessary for rapid emergency responses. APCO applauds FCC 
Chairman Martin and his colleagues for this critical and 
courageous decision. Absent FCC action, we would still be 
searching for solutions to protect the safety of a growing 
number of Voice Over IP subscribers, most of whom choose their 
telephone service without realizing the potential difficulties 
of calling 9-1-1, and receiving emergency assistance.
    Of course, still more needs to be done. The definition of 
Voice Over IP services covered by the new rules may need to be 
refined, and we need to find ways for call location information 
to be provided automatically without caller intervention. We 
also need to find ways to locate Voice Over IP callers who 
interconnect to the Internet from different physical locations. 
The FCC is currently examining these issues, and we urge the 
Commission, Voice Over IP providers, and the public safety 
community to work together to find solutions as quickly as 
possible. We commend those Voice Over IP providers who are 
working cooperatively toward these goals.
    APCO also believes that Congress and the FCC should look 
into the future, and adopt a rule to ensure that yet to be 
developed telephone technologies will be subject to appropriate 
9-1-1 requirements. Unfortunately, Voice Over IP took off in 
the marketplace before necessary 9-1-1 protections could be 
adopted. That left the public at risk, even while they were 
enjoying the fruits of the new technology. APCO believes that 
all voice communications that interconnect with the public 
switched telephone network, and use standard telephone 
numbering, must provide full E-911 capability.
    We know some have urged that PSAPs upgrade their systems to 
IP technology. While APCO strongly supports technological 
improvement to PSAPs, we urge extreme caution. First, under no 
circumstances should the current state of PSAP technology serve 
as an excuse for non-compliance by providers of Voice Over IP 
and other telephone services. These services should be required 
to deliver 9-1-1 calls to the existing PSAP networks.
    Secondly, calls for PSAP system upgrades overlook the 
fundamental financial constraints facing PSAPs. Most operate on 
limited budgets, with funding coming from either subscriber 
fees, or local government appropriations. Either way, most 
PSAPs can not afford the enormous cost of switching to IP-based 
technologies. Thus any discussion of upgrading PSAP capability 
must be accompanied by discussions for full funding for these 
upgrades.
    Overall, funding for PSAPs is another critical issue that 
we believe Congress needs to help us address. It is essential 
that there continues to be a reliable source of funding for 
PSAPs even as we move toward new forms of telephone 
communications. One way or another, all users of the telephone 
network who might someday need to call 9-1-1 must contribute 
towards the cost of providing 9-1-1 services.
    APCO has created a task force to examine the future funding 
challenges for PSAPs, and has prepared a white paper on 
sustainable funding models for emergency telecommunications 
across the country, which we would be happy to make available.
    Senator Burns, I want to sincerely thank you again for the 
opportunity to appear at this important field hearing. APCO 
looks forward to working with you and other Members of the 
Committee, and other members of the public safety community, in 
addressing this and other critical public safety issues.
    [The prepared statement of Ms. McCarley follows:]

     Prepared Statement of Wanda McCarley, President-Elect of the 
  Association of Public-Safety Communications Officials-International 
                                 (APCO)

    Thank you Senator Burns for the opportunity to appear at this 
hearing today to discuss the critical issue of Voice over Internet 
Protocol (VoIP) services and the impact of those services on the 
provision of 9-1-1 services by our Nation's public safety answering 
points (PSAPs).
    I am here today in my capacity as the president-elect of the 
Association of Public-Safety Communications Officials-International, 
known as APCO, a professional association of over 16,000 individuals 
who manage and operate public safety communications systems for state 
and local government agencies across the Nation. APCO has long been an 
active participant in FCC proceedings and congressional actions 
concerning public safety communications, addressing both radio spectrum 
issues and Enhanced 9-1-1 (``E-911'') matters that impact the 
operational requirements of PSAPs and the ability of emergency 
personnel to respond quickly and accurately to 9-1-1 calls.
    I am also here today as the Operations and Training Manager for the 
Tarrant County, Texas 9-1-1 District where I work day-to-day on the 
challenges facing PSAPs.
    APCO has long been deeply concerned with the ability of PSAPs to 
respond effectively to 9-1-1 calls made through VoIP providers. Early 
on, there were problems with VoIP calls being routed to the wrong PSAP, 
in some cases to PSAPs in distant states. Some VoIP providers adopted a 
strategy of routing ``9-1-1'' calls to PSAPs' ten-digit administrative 
numbers. In may cases, however, those administrative numbers are not 
answered by trained 9-1-1 call-takers. Indeed, calls to those 
administrative numbers often go into voice-mail, with a taped message 
informing callers to ``hang up and dial 9-1-1 if this is an 
emergency.'' Unfortunately, that inability to get through to a 9-1-1 
call-taker from a VoIP phone has led to dangerous delays in dispatching 
emergency personnel and, as was described in recent testimony before 
the FCC, tragic and perhaps avoidable deaths in several instances.
    In May, the FCC addressed this problem with firm, but fair rules to 
ensure that VoIP 9-1-1 calls will be delivered to the correct PSAPs 
with the location information necessary for rapid emergency responses. 
APCO applauds FCC Chairman Martin and his colleagues for this critical 
decision. Absent FCC action, we would still be searching for solutions 
to protect the safety of the growing number of VoIP subscribers, most 
of whom choose their telephone service without realizing the potential 
difficulties of calling 9-1-1 and receiving emergency assistance.
    Of course, still more needs to be done. The definition of VoIP 
services covered by the new rules need to be refined, and we need to 
find ways for call-location information to be provided automatically, 
without caller intervention. We also need to find ways to locate VoIP 
callers who interconnect to the Internet from different physical 
locations. The FCC is currently examining these issues, and we urge the 
Commission, VoIP providers and the public safety community to work 
together to find solutions as quickly as possible. We commend those 
VoIP providers who have elected to work cooperatively with public 
safety towards this goal.
    APCO also believes that Congress and the FCC should look into the 
future, and adopt a rule to ensure that yet-to-be developed telephone 
technologies will be subject to appropriate 9-1-1 requirements. 
Unfortunately, VoIP took off in the marketplace before necessary 9-1-1 
protections could be adopted by the FCC. That left the public at risk, 
even while they were enjoying the fruits of the new technology. APCO 
believes that all voice communications services that interconnect with 
the public-switched telephone and use standard telephone numbering must 
provide full E-911 capability.
    We know that some have urged that PSAPs upgrade their systems to IP 
technology. While APCO strongly supports technological improvements for 
PSAPs, we urge extreme caution. First, under no circumstances should 
the current state of PSAP technology serve as an excuse for non-
compliance by providers of VoIP or other ``new'' telephone services. 
Those services should be required to deliver 9-1-1 calls to the 
existing PSAP networks. Second, calls for PSAP system upgrades overlook 
the fundamental financial constraints facing PSAPs. Most operate on 
limited budgets with funding coming either from subscriber fees or 
local government appropriations. Either way, most PSAPs (many who have 
just completed upgrades to accept wireless E-911 calls) cannot afford 
the enormous cost of switching to IP-based technologies. Thus, any 
discussion of upgrading PSAP capability must be accompanied by 
discussions of full funding for those upgrades.
    Overall, funding for PSAPs is another critical issue that we 
believe Congress needs to help address. It is essential that there 
continues to be a reliable source of funding for PSAPs even as we move 
towards new forms of telephone communication. One way or another, all 
users of the telephone network who might someday need to call 9-1-1 
must contribute towards the cost of providing 9-1-1 services. APCO has 
created a task force to examine the future funding challenges for 
PSAPs, and has prepared a white paper on sustainable funding models for 
emergency telecommunications across the country. I would be happy to 
make copies of this white paper available to the Committee.
    Senator Burns, I want to thank you again for this opportunity to 
appear at this important field hearing. APCO looks forward to working 
with you and other Members of the Committee in addressing this and 
other critical public safety issues.

    Senator Burns. Thank you for your testimony. Mr. Greg 
Rohde, who is Executive Director of the E-911 Institute. Thank 
you for coming.

  STATEMENT OF GREG ROHDE, EXECUTIVE DIRECTOR, E-911 INSTITUTE

    Mr. Rohde. Thank you for inviting me here to testify. I 
really appreciate the invitation to testify here at this field 
hearing. It's very fitting that this hearing is being held on 
the first day of National Preparedness Month. In my judgment, 
access to E-911 services is a fundamental component of 
community preparedness. For our country to receive a sufficient 
level of nationwide preparedness, we're going to need to have 
universal access to E-911 services.
    The legislation which is the subject matter of this hearing 
really, as you know, parallels action by the FCC earlier this 
year in June that requires VoIP, providers of VoIP services to 
provide access to E-911 capabilities to their subscribers.
    But you also know it goes further. In particular, the 
legislation addresses two areas that the FCC asserted it did 
not have authority to address. One area is the area of 
liability protection; and the second is the area of requiring 
access to emergency services infrastructure, such as selected 
routers, on the part of VoIP providers.
    In my judgment, both these areas are necessary for 
successful implementation of E-911 over IP-enabled 
communications systems, and these provisions, as well as other 
provisions, really make your legislation necessary.
    I'll restrict my comments to making just three brief points 
about the legislation itself. One is: I would like comment on a 
provision which is probably overshadowed by many of the other 
provisions in the Act, and that is the provision that requires 
the new Joint Program Office that was established in the 
ENHANCE 9-1-1 Act enacted last year, to provide a national 
migration plan for IP emergency communications systems.
    While the provision might be overshadowed, it might very 
well be in the long run the most significant provision in your 
legislation, requiring the Administration to begin establishing 
a migration plan for citizen activated national IP-based 
communications system is badly needed, and the time to develop 
it is now.
    Certainly what gets the headlines, and what gets most of 
the attention, are the aspects of this issue with respect to 
the relationship between E-911 and VoIP services are on the 
challenges that such relationships impose on the existing 
system. Those challenges need to be overcome, and is clearly a 
top priority.
    However, that's not the whole story. The other piece of the 
story is we can't forget that moving to an IP-based 
communications system provides an enormous opportunity to get 
ahead of the game, and potentially provide significant new 
opportunities and tools for public safety and citizens to 
respond to emergencies.
    So I really applaud the foresightfulness of the 
legislation, and the fact you appreciate the fact that IP 
communications systems can in the long term greatly enhance 
public safety. We cannot leave the emergency communications 
systems in the country in a perpetual state of playing catch-
up. We have an opportunity now to get ahead of the game, and 
pushing the Administration to develop a plan is essential.
    In addition to pushing your legislation and this provision, 
I would also suggest you consider ways to commit more resources 
to either the Joint Program Office, or to the Institute for 
Telecommunications Sciences, the research lab of the National 
Telecommunications Information Administration. Both or either 
of these entities and the Federal industry can work 
cooperatively with industry on public safety, and really 
develop an effective migration plan.
    My second point is on the provision that requires the FCC 
to establish requirements and obligations for IP-enabled voice 
service providers to ensure that the customers have access to 
9-1-1 and E-911 services. As I stated before, the FCC has 
already taken this action. The FCC deserves an enormous amount 
of credit. I think to a person, all four of the existing 
Commissioners are very dedicated to public safety, and work 
very hard to take this very important step.
    However, this particular requirement is so important that 
it should not be left to a regulatory rule. I think that it's 
necessary for it to become a matter of statute. As you know, 
commissions can change, new players can come in. We don't want 
to have the circumstance of a future commission revisiting this 
issue. So it should be made a matter of statute.
    I also suspect that the deadline set by the FCC for 
compliance is going to be less a finish line, and more the 
beginning of the end. As we learned, and as we are currently 
learning in the implementation of wireless E-911 services, that 
you simply can't impose deadlines and expect it to happen. The 
FCC is going to have to manage compliance, not simply assert 
it, and it's going to work carefully with industry, and need to 
maintain flexibility in imposing and enforcing the rules, but 
allow the industry to have a flexible way of achieving those 
rules.
    This industry in particular is characterized by rapid 
change and innovation, and should allow and foresee that as an 
opportunity, not as a problem.
    My third and final point is the issue of definitions--
telecommunications versus information services. In my judgment, 
there we do have a circumstance of regulatory failure. The 
regulators are in part responsible for problems that we've had, 
and some of the early headlines we've seen of citizens calling 
9-1-1 and VoIP not being able to connect.
    The reason why is the FCC. The regulators have allowed the 
providers to hide under the shroud of calling themselves an 
information service, when in truth they are a 
telecommunications service. As you know, Senator, it's very 
clear from the letter of intent of the 1996 Telecommunications 
Act, there was no such thing as a distinction between voice and 
data service. The FCC over the past several years has pursued 
an agenda to create escape hatches out of the statute.
    I would suggest that you consider, either as part of this 
legislation or some other legislation considered by the 
Commerce Committee, that you address this issue head on, and 
clarify to the Commission that any service that is sold, and 
functions, and looks, and acts like traditional telephone voice 
service is a telecommunications service, period.
    With that, I'd be happy to answer any questions.
    [The prepared statement of Mr. Rohde follows:]

   Prepared Statement of Gregory L. Rohde, Executive Director, E-911 
                               Institute

Introduction
    Senator Burns, thank you very much for inviting me to testify at 
this field hearing today on S. 1063, the ``IP-Enabled Voice 
Communications and Public Safety Act of 2005.'' It is very fitting that 
this hearing is being held on the first day of ``National Preparedness 
Month.'' The nationwide emergency call number, 9-1-1, is the citizens' 
link to emergency response. In my judgment, access E-911 (enhanced 9-1-
1) services is a fundamental component of community preparedness. For 
our country to achieve a sufficient level of nationwide preparedness, 
we need universal access to E-911 services. Addressing the challenges 
in implementing E-911 over IP-based communications systems is one of 
the many issues that require the attention of Congress and regulators 
at the Federal and state levels to advance public safety.
    My name is Gregory L. Rohde and I serve as the Executive Director 
of the E-911 Institute. The Institute is a not-for-profit organization 
and, as you know, works closely with the Congressional E-911 Caucus, 
which you co-chair with your colleagues, Senator Hillary Clinton (D-
NY), Representative John Shimkus (R-IL), and Representative Anna Eshoo 
(D-CA). The Institute is not an advocacy organization and my work for 
the organization is completely voluntary, i.e., without compensation. 
My testimony today reflects my personal views and I am not advocating 
any particular position on behalf of the E-911 Institute members.
    The E-911 Institute has approximately 600 members from around the 
country. Our membership includes individuals from the public safety 
community, first responders, academics, industry professionals, and 
government officials at the local, state, and Federal levels. We 
conduct educational events for policymakers, including community forums 
done in conjunction with our affiliation with the Citizen Corps program 
in the U.S. Department of Homeland Security. Our funding comes entirely 
from donations from our members and organizations which share our 
mission to advance E-911 through education and awareness efforts.
General Comments on S. 1063
    As introduced, the IP-Enabled Voice Communications and Public 
Safety Act of 2005 would:
        <bullet>  Require the Federal Communications Commission (FCC) 
        to ``establish requirements or obligations on providers on IP-
        enabled voice service to ensure that 9-1-1 and E-911 services 
        are available to customers of IP-enabled voice services;''
        <bullet>  Require IP-enabled voice providers to notify their 
        customers if their service cannot provide 9-1-1 or E-911 
        service;
        <bullet>  Require entities which own or control the ``necessary 
        emergency services infrastructure'' to provide non-
        discriminatory access to IP-enabled voice service providers;
        <bullet>  Establish liability immunity related to IP-enabled 
        voice service that is on par with liability protections 
        afforded to 9-1-1 service over wireless or traditional landline 
        telephone service; and
        <bullet>  Require the Joint Program Office established under 
        the ENHANCE 911 Act to develop a plan for migrating from the 
        existing 9-1-1 system to a national IP-enabled emergency 
        network.
    This legislation parallels the recent action by the FCC in June of 
this year requiring interconnected VoIP (Voice over Internet Protocol) 
service providers to provide E-911 capabilities to their subscribers, 
but it also goes further. In particular, the legislation addresses two 
areas which the FCC asserted it lacked authority: (1) liability 
protection and (2) requiring access to emergency services 
infrastructure such as selective routers. In my judgment, both these 
areas are necessary to ensure a successful implementation of E-911 over 
IP-enabled voice service systems. This makes your legislation necessary 
and would complement the actions already taken by the FCC to require 9-
1-1 and E-911 over IP-enabled telecommunications systems.
National Migration Plan Requirement
    One unique provision in your legislation which merits further 
discussion at this hearing is the provision requiring the establishment 
of a national migration plan for an IP-enabled emergency communications 
system. While the provision to require the Joint Program Office to 
establish a plan to migrate to an IP-enabled emergency communications 
system may be overshadowed by other provisions in S. 1063, it could 
become one of the most significant aspects of your legislation. Until 
recently, E-911 issues have received little Federal attention. The work 
of the Congressional E-911 Caucus, including the successful passage and 
enactment of the ENHANCE 911 Act, has helped to elevate the discussion 
of E-911 issues at the Federal level. Requiring the Administration to 
begin establishing a migration plan for a citizen activated national 
IP-based emergency communications system is badly needed and the time 
to develop such a plan is now.
    Much of the focus on E-911 issues with respect to IP-enabled 
communications systems is centered on the challenges that IP-enabled 
systems impose on the current 9-1-1 emergency call number system. 
Indeed, there are significant issues that must be addressed and the 
``near term'' issues of ensuring E-911 access over the current 
generation of VoIP systems is a top priority. Consumers expect that any 
service which is sold to them as a ``telephone service'' will be able 
to connect to 9-1-1 and Federal and state regulators should not allow a 
voice communications service to be sold to the public without such 
capability.
    However, the story of how E-911 relates to the IP-enabled 
communications system is not limited only to the challenges VoIP E-911 
imposes on the existing system. As we address these immediate 
challenges, we cannot lose sight of the potential benefits and 
enhancements that IP-enabled communications systems can mean for 
emergency communications. Significant research and development efforts 
are underway which explore the next generation 9-1-1 systems that could 
be created on an IP-based system. Such a system, if developed and 
deployed effectively, could provide citizens, call centers, and first 
responders with greatly enhanced tools to address calls for help via 9-
1-1.
    I applaud your insightfulness to be forward looking and to 
appreciate the fact that IP-enabled communications systems can, in the 
long-term, greatly enhance public safety communications. Pushing the 
Joint Program Office to explore these capabilities and develop a 
national plan is the right step to take at this point in time. We do 
have an opportunity to get ahead of the game. Our emergency 
communications systems should not remain in a perpetual state of 
``catch up.'' The proliferation of broadband access and the emergence 
of new IP-enabled applications such as VoIP are creating an opportunity 
to build a better, more capable system that enhances public safety. 
Thoughtful planning, at the Federal level working in cooperation with 
local, state, and tribal officials is a necessary first mover towards 
this objective.
    In addition to pressing the Joint Program Office, as provided in S. 
1063, to develop a migration plan for the next generation E-911 system, 
I would suggest, in addition, that you consider ways to commit more 
Federal resources for research and development of IP-enabled emergency 
communications systems through appropriating funds to the Joint Program 
Office and/or to the Institute for Telecommunications Sciences (ITS), 
the research laboratory of the National Telecommunications and 
Information Administration (NTIA). Either ITS or the Joint Program 
Office can work cooperatively with public safety, industry, and 
academia to develop the next generation 9-1-1 system that is IP-based 
and provides greatly enhanced capabilities than the present system 
today.
E-911 Access Requirements for IP-Enabled Services
    Section 2 of S. 1063 requires the FCC to establish requirements and 
obligations on IP-enabled voice service providers to ensure that their 
customers have access to 9-1-1 and E-911 services. While the FCC has 
already taken this action under their authority, making this a 
statutory requirement is very important. The current FCC displayed 
admirable leadership in taking this action, but it is still only a 
regulation that could be changed at a later point in time. A mandate to 
provide access to E-911 over IP-enabled voice communications systems is 
important enough that it should be a requirement in the statute. Going 
forward, the FCC's role should be to manage the implementation of this 
requirement and not to entertain considerations and appeals to reverse 
course.
    I suspect that the deadline set by the FCC for compliance is going 
to be less a finish line and more the beginning of the end. As we have 
learned from the FCC's attempt to implement wireless E-911, achieving 
the goal is more complicated than simply setting deadlines. There are 
technological limitations and the ability of providers to meet the 
requirements changes as technology develops.
    The FCC needs to manage compliance, not simply assert it. The 
Commission should be clear in the objectives it desires from providers, 
but allow the industry flexibility in meeting those objectives. The FCC 
needs to be a strong enforcer, but more importantly, the Commission 
needs to play the role of pushing providers under its jurisdiction to 
optimize the performance of the best available technology and not 
reduce their role into a ``gotcha game.'' The IP-enabled services area 
is a highly innovative sector characterized by rapid change. It is 
important to use this opportunity for innovation to the advantage of 
public safety. Therefore, enforcement of FCC requirements should be 
flexible and always mindful of technology evolution and the advantages 
that innovation can provide.
    As Congress considers directives to the FCC to require access to 9-
1-1 and E-911 service on IP-enabled voice service providers, assume 
that the FCC will have to engage in some complex implementation 
activity. The Congress should contemplate significant oversight and 
require the FCC to continuously report on progress.
Telecommunications vs. Information Services
    I would also encourage you to address the fundamental regulatory 
cause of failure with respect to the availability of VoIP service to 
provide access to 9-1-1 and E-911 services. The core of this problem 
lies in the FCC's agenda to engage in definitional hairsplitting with 
respect to telecommunications and information services definitions. 
While the statute does not distinguish between voice and data services, 
the FCC, nevertheless, has created this artificial distinction in order 
to pursue a service classification game designed to undermine the 
statute. In the process, the FCC has made it possible for voice 
communications services to be sold to the public which lack access to 
9-1-1 and E-911.
    VoIP service that is sold to the public as an alternative to 
traditional telephone service should have never been allowed to hide 
under the shroud of being an ``information service'' and avoid the 
obligations imposed on traditional voice service. One of those 
obligations is to provide access to E-911. In my judgment, the VoIP 
services that look, act, and function like traditional voice service 
should have never been allowed to be sold to the public unless 9-1-1 
and E-911 was a standard feature of the service. The current FCC 
deserves credit for their leadership, but the previous FCC deserves an 
equal share of responsibility for allowing this circumstance to emerge 
in the first place.
    This is 2005, not 1905. We live in an era of advanced 
telecommunications services and there is no reason why services being 
sold and marketed to the public would be absent the basic emergency 
communications feature most Americans expect today--access to the 9-1-1 
system. While I have very high praise for the leadership of Chairman 
Kevin Martin and his fellow Commissioners who acted with speed and 
clarity on this matter, I am deeply disturbed by the fact that the FCC 
had to act after the fact.
    But, we are where we are and it would not be in the best interest 
of the approximately 2 million consumers with VoIP service to have 
their service terminated. In fact, the Commission acted wisely last 
week, in my judgment, in demonstrating some flexibility with respect to 
enforcing the June 3rd order by extending the deadline for positive 
affirmation from consumers that they are aware of the service 
limitations of their VoIP service. While the FCC rule is a good one--
customers should be made aware of the service limitations of their 
service--the FCC did the right thing in not using the ultimate hammer 
by terminating service at this time. Termination of service should be 
done only in extreme cases of non-cooperation by providers and imposed 
by the Commission only with respect to actions that are in the control 
of the provider. We need to move forward from this point and I am 
confident that the Commission, with Congressional oversight, will 
manage compliance with their requirements reasonably.
    I suggest that the Congress clarify to the Commission that IP-
enabled voice services, including VoIP services, are telecommunications 
services and should be treated like other voice services. The clear 
meaning and intent of the Telecommunications Act of 1996 was to have 
similar services treated in similar ways. The Congress needs to rein in 
the Commission's efforts to find escape hatches out of the statute. The 
problem of VoIP service being provided without access to E-911 is a 
necessary outgrowth of the definitional gamesmanship environment that 
has been fostered by the Commission since the enactment of the 
Telecommunications Act of 1996.
    Furthermore, it was the unwillingness of the Commission to classify 
VoIP as a telecommunications service that became the grounds for 
assertion that the Commission was unable to ensure that VoIP providers 
could access the selective routers and emergency communications systems 
they need to access to provide 9-1-1 and E-911 service. The Commission 
left this important step up to voluntary negotiations among industry 
segments. S. 1063, however, does address this specific issue of 
requiring access to the selective routers and emergency communications 
systems controlled by incumbent companies. As I alluded to earlier, 
this is one of the provisions of this legislation which makes the 
enactment of this measure necessary to ensure 9-1-1 and E-911 access 
over IP-enabled systems.
    I would suggest that either in S. 1063 or other telecommunications 
legislation considered by this Committee, that you address this 
classification problem that is undermining key social covenants that 
many Americans have come to expect in modern day life--such as access 
to 9-1-1 and E-911 service. I am by no means suggesting that IP-enabled 
services be subjected to the whole range of regulatory obligations of 
traditional telephone service. Many of these requirements may not be 
necessary. The FCC has the tools under the forbearance authority 
contained in the statute to ensure the new, innovative services such as 
VoIP are not smothered in unnecessary regulations. But, there are some 
necessary regulations and in my judgment, access to emergency 
communications services such as E-911 is one of these necessities. New 
services such as VoIP will fare much better in the marketplace if the 
regulatory requirements are clear from the start. The current 
circumstance is an environment of uncertainty. This is far more 
constraining on innovation than a clear regulatory environment where 
providers can have a clear sense of their obligations and requirements.
Conclusion
    Thank you again, Senator Burns, for inviting me to testify. More 
importantly, thank you for your leadership. You have truly been the 
leading voice in the U.S. Senate in advancing E-911. A great deal of 
progress has been made, in part directly from your efforts, and the 
public safety community and the industry have shared praise of your 
efforts.
    I would be happy to respond to any questions.

    Senator Burns. Thank you very much. Now we go to Mr. George 
Heinrichs, who is CEO and Chairman of Intrado. Thank you for 
coming.

   STATEMENT OF GEORGE HEINRICHS, PRESIDENT AND CEO, INTRADO

    Mr. Heinrichs. Thank you, Senator Burns. I'm George 
Heinrichs, the CEO of Intrado. We are a provider of the core 
infrastructure of our Nation's emergency network. I've been 
privileged to work with you on 9-1-1 issues for many years, and 
in fact, I first testified before you in the Senate 
Communications Subcommittee in May of 1989 when you convened a 
hearing on the original E-911 bill, which required that 9-1-1 
be the universal number for emergency calls over cell phones.
    Fortunately, the Wireless Communications and Public Safety 
Act of 1999, which you authored, passed into law. I have no 
doubt that many lives have been saved by this commonsense piece 
of legislation.
    Thank you for inviting to me to testify today on the 
critical topic of bringing lifesaving enhanced 9-1-1 
capabilities to the increasingly important area of Voice Over 
Internet Protocol services. I would also like to take the 
opportunity to acknowledge the tireless efforts of my 
colleagues, who are also here to testify regarding national 
concerns, namely David Jones of NENA, Wanda McCarley of APCO, 
Greg Rohde of the E-911 Institute, and Jeffrey Citron of 
Vonage. Their leadership and countless hours of work have 
significantly contributed to furthering emergency services in 
our country.
    It's truly a team effort, and I'm proud during my career to 
have served as a call taker, an EMS responder, and a law 
enforcement officer, and today my role is in service to a much 
larger constituency, as the primary provider of the Nation's 
underlying 9-1-1 technology.
    Senator Burns, you've long been a champion of 9-1-1 issues, 
and have shown both a tremendous passion and an effective 
advocacy for creating strong coalitions that have resulted in 
lifesaving legislation.
    I should add that the location of today's hearing in your 
beautiful state of Montana is particularly appropriate, for 
rural states have the challenge of dealing with vast distances 
that make efficient and universal emergency communications all 
the more important, and absolutely vital for citizens.
    Unfortunately, many rural states suffer in this regard 
without the leadership and resources of your home state. 
Furthermore, as Montana is currently in the grip of the fire 
season, threats to the public safety highlight the constant 
need to attend to the state's emergency communications 
infrastructure.
    In your capacity as a champion of 9-1-1 issues in the 
Senate, your efforts have been relentless in seizing any 
opportunity to upgrade our Nation's critical emergency 
networks.
    Most recently, the public safety community was particularly 
impressed at the act of political leadership displayed on the 
final day of the 108th Congress, by simply refusing to allow 
the Senate to go out of session until the ENHANCE 9-1-1 Act of 
2004, which you authored, was passed. While it was the very 
last bill of the 108th Congress, it is also among the most 
important, as the bill authorized $1.25 billion for upgrades of 
public safety answering points across the country so that 9-1-1 
callers could be accurately located.
    Unlike so many issues before Congress, 9-1-1 is truly 
bipartisan in nature, which you showed by reaching across the 
aisle to team with Senator Clinton in creating the 9-1-1 
caucus. In the little more than two years since its creation, 
the E-911 caucus has rapidly transformed into a key national 
policy forum where the public safety community musters support 
for lifesaving initiatives.
    Just as you showed great vision in moving forward on 
bringing critical 9-1-1 services to cell phones, you recognized 
early on that as VoIP services began to grow in popularity, 
lifesaving 9-1-1 capabilities remain an essential aspect of 
telecommunications service to all Americans.
    Last summer, you authored the Burns amendment to VoIP 
legislation being considered in the Senate Commerce Committee, 
which required 9-1-1 services to be offered by VoIP providers. 
You have continued this leadership by championing Senate Bill 
1063, the IP-enabled Voice Communications and Public Safety Act 
of 2005.
    Before discussing the merits of the legislation, I would 
first like to provide you with a brief description of Intrado. 
For over a quarter of a century, telecommunications providers, 
public safety organizations, and government agencies have 
turned to Intrado for communications needs. Founded in 1979, 
Intrado has built a strong reputation as an innovator in 
emergency communications. Today Intrado provides the core of 
America's 9-1-1 infrastructure and a wide range of offerings 
for safety and mobility markets that include 9-1-1 data 
management, call routing and subscription services, wireless 
data services, and notification services.
    Throughout its history, we have enthusiastically 
participated in bringing our experience and resources to bear 
in the evolution of America's emergency communications policy. 
The rapid growth of wireless and Voice Over Internet Protocol 
and alternative technologies present new challenges to the 
current infrastructure. Intrado products, services, and systems 
support an estimated 200 million 9-1-1 calls a year, with a 
growing percentage of these calls coming from wireless and VoIP 
phones. The Intelligent Emergency Network, which is our next 
generation product, is designed to address and support those 
changing requirements.
    Turning our attention to Senate Bill 1063, we would like to 
extend our full support for this critical public safety 
legislation. Senator Burns, your leadership and commitment to 
ensuring that our Nation's citizens continue to receive the 
emergency services they need when dialing 9-1-1, regardless of 
the technology employed by the users, have been met with much 
deserved and widespread approval of the public safety 
community.
    In addition, there are vital issues that still need to be 
addressed that only Congress has the authority on which to act. 
The technology that is required to provide both fixed and 
nomadic VoIP subscribers with emergency service exists today. 
However, the necessary policy changes are not yet in place, and 
both Congress and the Federal Communications Commission must 
continue to work together to ensure such changes are made.
    As such, we recommend the following policy enhancements 
that will provide appropriate statutory framework for the 
delivery of emergency services to all subscribers of IP-enabled 
services.
    The critical matter that still needs to be clarified is 
exactly what types of entities are afforded access to the 9-1-1 
network in order to reliably deliver the caller's location and 
call back number to the appropriate answering point when a call 
is placed from an IP-enabled device. Without minimum standards 
for access to our Nation's critical 9-1-1 infrastructure, VoIP 
service providers operating outside this country, or those who 
are technically naive would be granted access to our 9-1-1 
network, posing a significant threat to homeland security.
    This is not a theoretical concern, as America has already 
been the target of increasingly sophisticated attacks from 
organizations of foreign origin on our core emergency 
information infrastructure, and these mirror previous denial of 
service attacks on the Internet at large.
    This is a clear and present danger to the security of our 
Nation, and must be acknowledged and prevented. If the 9-1-1 
network of the United States were rendered inoperable, the 
results could be tragic.
    Let me skip quickly to two other points. One is official 
standards. We recommend strongly that the Federal policy should 
recognize the important role of accredited standards 
organizations, and should insist on adherence to 9-1-1 
standards developed within those organizations. Having this 
policy measure will ensure that appropriate rules are in place, 
and do not hinder the deployment of VoIP 9-1-1 services.
    Finally, to give our support for liability protection, 
which we believe is important to provide the parity for all of 
the carriers that are providing service in the U.S. Thank you 
very much.
    [The prepared statement of Mr. Heinrichs follows:]

Prepared Statement of George Heinrichs, President and CEO, Intrado Inc.

    Senator Burns, I am George Heinrichs, CEO of Intrado Inc., the 
provider of the core infrastructure of our Nation's emergency 
communications network. I have been privileged to work with you on 9-1-
1 issues for many years. In fact, I first testified before you in the 
Senate Communications Subcommittee in May of 1999 when you convened a 
hearing on the original E-911 bill, which required that 9-1-1 be the 
universal number for emergency calls over cell phones. Fortunately, the 
Wireless Communications and Public Safety Act of 1999, which you 
authored, passed into law. I have no doubt that many lives have been 
saved by this commonsense piece of legislation. Thank you for inviting 
me to testify today on the critical topic of bringing lifesaving 
enhanced 9-1-1 capabilities to the increasingly important area of Voice 
over Internet Protocol (VoIP) services.
    I would also like to take the opportunity to acknowledge the 
tireless efforts of my colleagues who are also here to testify 
regarding national concerns, namely David Jones of NENA, Wanda McCarley 
of APCO, Greg Rohde of the E-911 Institute and Jeffrey Citron of 
Vonage. Their leadership and countless hours of work have significantly 
contributed to furthering emergency services in our country. It is 
truly a team effort and I am proud during my career to have served as a 
call taker, EMS responder and law enforcement officer. Today, my role 
is in service to a much larger constituency as the primary provider of 
our Nation's 9-1-1 technology.
    Senator Burns, you have long been a champion of 9-1-1 issues and 
have shown both a tremendous passion and effective advocacy for 
creating strong coalitions that have resulted in lifesaving 
legislation. I should add that the location of today's hearing in your 
beautiful state of Montana is particularly appropriate, for rural 
states have the challenge of dealing with vast distances that make 
efficient and universal emergency communications all the more important 
and absolutely vital for their citizens. Unfortunately, many rural 
states suffer in this regard without the leadership and resources of 
your home state. Furthermore, as Montana is currently in the grip of 
the fire season, threats to the public safety highlight the constant 
need to attend to the State's emergency communications infrastructure.
    In your capacity as a champion of 9-1-1 issues in the Senate, your 
efforts have been relentless in seizing any opportunity to upgrade our 
Nation's critical emergency communications networks. Most recently, the 
public safety community was particularly impressed at the act of 
political leadership you displayed on the final day of the 108th 
Congress by simply refusing to allow the Senate to go out of session 
until the ENHANCE 911 Act of 2004, which you authored, was passed. 
While it was the very last bill passed in the 108th Congress, it was 
also among the most important, as the bill authorized $1.25 billion for 
upgrades to public safety answering points across the country to allow 
for 9-1-1 callers to be accurately located.
    Unlike so many issues before Congress, 9-1-1 is truly bipartisan in 
nature, which you showed by reaching across the aisle to team with 
Senator Clinton in creating the E-911 Caucus. In the little more than 
two years since its creation, the E-911 Caucus has rapidly transformed 
into a key national policy forum where the public safety community 
musters support for lifesaving initiatives.
    Just as you showed great vision in moving forward on bringing 
critical 9-1-1 services to cell phones, you recognized early on that as 
VoIP services began to grow in popularity, lifesaving 9-1-1 
capabilities remain an essential aspect of telecommunications service 
to all Americans. Last summer, you offered the Burns amendment to VoIP 
legislation being considered in the Senate Commerce Committee, which 
required 9-1-1 services to be offered by VoIP providers. You have 
continued this leadership by championing Senate Bill 1063, the IP-
Enabled Voice Communications and Public Safety Act of 2005.
    Before discussing the merits of this legislation, I would first 
like to provide you with a brief description of Intrado. For over a 
quarter of a century, telecommunications providers, public safety 
organizations and government agencies have turned to Intrado for their 
communications needs. Founded in 1979, Intrado has built a strong 
reputation as an innovator in emergency communications. Today, Intrado 
provides the core of North America's 9-1-1 infrastructure and a wide 
range of offerings for the safety and mobility markets that includes 9-
1-1 data management, call routing and subscription services, wireless 
data services and notification services.
    Throughout its history, Intrado has enthusiastically participated 
in bringing its experience and resources to bear in the evolution of 
America's emergency communications policy and infrastructure. As 9-1-1 
has grown to become an essential element of telecommunications service, 
Intrado has played a key role in defining, building and maintaining our 
complex emergency communications infrastructure.
    The rapid growth of wireless and Voice over Internet Protocol 
communications and other alternative technologies presents new 
challenges to the current infrastructure. Intrado products, services 
and systems support an estimated 200 million 9-1-1 calls each year, 
with a growing percentage of these calls coming from wireless and VoIP 
phones. The Intrado Intelligent Emergency Network<SUP>TM</SUP>, 
Intrado's next generation, IP-based emergency communications services 
network, is designed to address and support these changing 
communications requirements.
    Turning our attention to Senate Bill 1063, Intrado would like to 
extend its full support for this critical public safety legislation. 
Senator Burns, your leadership and commitment to ensuring that our 
Nation's citizens continue to receive the emergency services they need 
when dialing the digits ``9-1-1,'' regardless of the technology 
employed by users, have been met with much-deserved, widespread 
approval in the public safety community.
    In addition, there are vital issues that still need to be addressed 
that only Congress has the authority on which to act. The technology 
that is required to provide both fixed and nomadic VoIP subscribers 
with emergency services exists today; however, the necessary policy 
changes are not yet in place, and both Congress and the Federal 
Communications Commission must continue to work together to ensure such 
changes are made.
    As such, Intrado proposes the following policy enhancements that 
will provide the appropriate statutory framework for the delivery of 
emergency services to all subscribers of IP-Enabled services:
Qualified Access to the 9-1-1 Network
    A critical matter that still needs to be clarified is exactly what 
types of entities are afforded access into the 9-1-1 network in order 
to reliably deliver the caller's location and call back number to the 
appropriate Answering Point when a 9-1-1 call is placed from an IP-
enabled device. Without minimum standards for access into our Nation's 
critical 9-1-1 infrastructure, VoIP service providers operating outside 
of this country or those who are technically naive would be granted 
access to the E-911 network, posing a significant threat to homeland 
security. This is not a theoretical concern, as America has already 
been the target of increasingly sophisticated attacks from 
organizations of foreign origin on our core emergency information 
infrastructure, which mirror previous denial of service attacks on the 
Internet at large.
    This clear and present danger to the security of our Nation must be 
acknowledged and prevented. If the 9-1-1 network of the United States 
were rendered inoperable, the results could be tragic. Clearly, 
safeguarding our 9-1-1 infrastructure from these threats through a 
minimally intrusive qualification process is paramount. E-911 service 
providers, who currently provide access into the 9-1-1 network, must 
have the technical acumen to ensure those providers gaining access are 
qualified and meet an appropriate level of technical sophistication and 
security, for the purposes of providing E-911 services. The combination 
of qualified E-911 service provider operation of the secure network 
connectivity point and some minimal criterion for companies that 
interconnect with them would ensure our Nation's future E-911 network 
is at least as safe and reliable as today's 9-1-1 infrastructure.
    Appropriate policy measures should be considered that provide a 
framework for the evolution of the 9-1-1 network to accommodate future 
advancements in telecommunications. This should include accommodation 
or modification of the current 9-1-1 network and the setting of clear 
objectives to move the U.S. forward in more advanced and intelligent 
communications infrastructures.
Official Standards
    Federal policy should recognize the important role of accredited 
standards organizations and should insist on adherence to 9-1-1 
standards developed within those organizations. Having this policy 
measure will ensure that appropriate rules are in place that do not 
hinder the deployment of VoIP 9-1-1 services across the country and are 
in line with this current technology. Legacy deployment practices will 
not work in this new IP environment and reliance on such will only slow 
down a nationwide rollout of emergency services.
Liability Protection
    Given that only Congress can assign liability protection to IP-
Enabled service providers, it is imperative that Federal legislation is 
enacted to ensure this provision becomes a Federal mandate. Congress 
must grant VoIP providers the same liability protection and immunity as 
dictated by the States--much like you did for wireless carriers under 
the original Burns E-911 bill, the Wireless Communications and Privacy 
Act of 1999. In order for the IP-Enabled Service Providers to obtain 
liability protection, they will need to meet certain criteria so that 
the integrity of the 9-1-1 network is not placed in jeopardy. In 
addition, it is important that liability protection be extended to 
third-party providers, vendors and agents of these IP-Enabled Service 
Providers.
    As VoIP services become ever more popular among Americans, our 
Nation's telecommunications policy must keep pace with this 
development. One key aim of policymakers when creating the proper 
regulatory structure of VoIP technology should be the preservation of 
our Nation's critical E-911 information infrastructure. You have shown 
your leadership in the national policy arena by sponsoring vital public 
safety legislation which is balanced, far-reaching and has been met 
with enthusiastic support. By enacting policy that addresses the 
aforementioned issues, Congress will not only preserve the integrity 
and reliability of the 9-1-1 network, but will also achieve its goal of 
providing the policy framework required to ensure all users of IP-
Enabled services have access to full E-911 emergency services. Again, 
Intrado thanks you for your well-considered, commonsense legislation 
and supports its passage by the Congress in rapid fashion.
    Finally, I am pleased to see Michael Brown, the Under Secretary of 
the Department of Homeland Security in attendance and would like to 
extend my appreciation to him for all of his work in bridging the gap 
between emergency services and homeland security. The Under Secretary's 
understanding of the real threats facing America's communities is a 
credit to him and to this administration. Creating and maintaining the 
best emergency communications network in the world is a constant 
challenge and is truly a collaborative effort.
    Thank you again for the opportunity to testify here today. I would 
be more than happy to answer any questions you may have.

    Senator Burns. Thank you, and thank all of you for your 
testimony today. I've seen it written up in the communications 
papers and communications that being as the FCC has passed this 
order, further legislation needed? I'll start with you, Mr. 
Rohde.
    Mr. Rohde. Yes, Senator, I believe it is, for a number of 
reasons which I just outlined. One is I do think it's important 
to make the requirement a statutory requirement, not simply a 
regulatory requirement. For that reason alone, you should pass 
legislation.
    I also think--and the other panelists have said the same 
thing--that the liability parity provision is necessary. The 
liability immunity you provide for wireless E-911 services and 
landline 9-1-1 services should apply to VoIP services.
    Third is the provision of--the FCC chose not to assert 
authority to require that VoIP providers have access to the 
emerging infrastructure that local exchange carriers control, 
such as selected routers. So since the FCC did not make that a 
requirement, Congress really has to step in and make that 
requirement.
    So for those three reasons alone, that legislation is 
necessary.
    Senator Burns. Mr. Citron.
    Mr. Citron. We would agree wholeheartedly that those items 
just recognized be included in Congressional mandates. I want 
to make one additional comment that was made during the 
previous testimony, and that that is our Nation's network of E-
911 is really a patchwork quilt of 6,000 different sets of 
standards, and a national standard should be created, and 9-1-1 
should be treated as a national asset, not as something that is 
incredibly local, and can deviate freely, depending on the 
service areas being currently covered by 9-1-1.
    Senator Burns. Do you want to comment on that, George?
    Mr. Heinrichs. We're not in Washington. I'll just keep the 
word short.
    Senator Burns. Wanda.
    Ms. McCarley. I think most assuredly there's more work to 
be done, and Congress has a role in that. To just reiterate, 
I'll just ditto Greg's comments. The items that he's outlined 
are excellent examples of the role that Congress could take in 
forwarding these goals.
    Senator Burns. How realistic is November 28th? Is that a 
realistic date?
    Mr. Citron. I guess as the one here who was responsible for 
releasing the service throughout the entire United States by 
that deadline, we suspect that we will get the majority of our 
customers online well within that time period. I think it's 
going to be challenging to get every single customer on in that 
period. Getting access to underlying facilities, just the 
timeline of testing is quite difficult. I'm sure that APCO and 
NENA represent their constituents, but we need to test and 
implement the solution with hundreds of selective routers, and 
literally implement 6,000 PSAPs.
    We think that to go out and rush to get it online when it's 
not been properly tested and give the fail safe protections and 
standards necessary is difficult. With that said, we'll, of 
course, move as fast as possible, get as many people as quickly 
as possible, irrespective of any deadline set by the FCC.
    Senator Burns. Should the FCC be pretty flexible on this?
    Mr. Citron. We think the FCC should look at what the 
service providers are doing on an individual case-by-case 
basis. Providers are working diligently and hard getting this 
rolled out. They should provide the flexibility and comment on 
necessary time lines, too.
    Senator Burns. You know we have challenges of getting this 
done. Is it the technology? What kind of challenges, what are 
you running into out there that would slow the progress of 
instrumenting E-911 and Voice Over IP?
    Mr. Citron. I think there are a lot of challenges. The 
first for starters is identifying every selected router in the 
country we need to hook into, because there is no such mandated 
list maintained by any Federal or state authority. So we don't 
even know all the things we need to do. We're still finding 
every single--APCO, and NENA, and Intrado are great partners--
in trying to identify those access points.
    Even beyond that, accessing those elements, having to 
negotiate commercial agreements, interconnect with those 
relationships, without any standards made available, requires 
us to literally sit down with every single operator and owner, 
and explain to them how this solution is going to work, and to 
customize that solution, because there are no standards for 
local communications. Beyond that, the testing with PSAPs takes 
a quite a bit of time. And everybody has got a little bit of a 
different view.
    So I think there are a lot of challenges out there, and 
only time and the dedication of all the people at this table 
are going to be required to make this work.
    Senator Burns. Would you like to comment on that question? 
Nobody?
    Mr. Heinrichs. Senator, I would suggest that I think the 
timeline is unreasonable in the sense that it's unprecedented 
in the history of 9-1-1. If you look at the history of rolling 
out wireless in the United States, it was measured in a matter 
of years or decades actually. If you look at wireless, we've 
worked together on this for a long time, and we're still 
working on that.
    One Hundred and Twenty-days certainly provided a lot of 
motivation for a lot of people working very hard. I think when 
we get to the end of that, they'll see the fruits of their 
labor, and it will be good, but it's not going to be 100 
percent. I think it's clear to me right now from where I sit 
that this will not be nationwide and complete by that deadline.
    Senator Burns. I've looked at the wireless thing, and also 
on Voice Over IP, and that's the reason I asked the flexibility 
question. I'd hate to see the FCC go and fine people or 
anything like this before they get it done. There are 
challenges out there, some challenges that we didn't have in 9-
1-1, to be honest with you. But I still think it's important.
    We had testimony of many--of instances where 9-1-1 wasn't 
answered and something very bad happened. So we're very much--I 
would like to stay in the circle on all of you--especially you, 
Mr. Citron, because of your experience with trying to put 9-1-1 
into Voice Over IP--challenges that might arise that we don't 
think of. And just to stay in it, as we put this technology out 
there, and try to force it out.
    As you know, sometimes the marketplace does it faster than 
Congress or deadlines can do it, but sometimes I always have 
the feeling that the market should really force a lot of this, 
and would do a better job.
    Mr. Citron. In addition to the challenges that I've already 
outlined, there are others that do concern us. We think that 
the FCC has done a great job in really moving the ball forward. 
We tried to deploy E-911 for a very long time, and Intrado 
worked very hard with us on issues; and without getting the 
underlying access, it was nearly impossible, and only with the 
help of the FCC intervention have Bell Operating Companies and 
owners of the 9-1-1 infrastructure started to let us get 
access.
    But the FCC has other policies that do concern us, and may 
come up to hurt us in a bad way, and that is clearly the FCC 
has mandated that if 9-1-1 service can't be provided, that 
service be discontinued to a user. And as users of nomadic 
Voice Over IP services move around, it's quite possible that a 
user will move around to a location, will type in his new 
location, and then the service will of course stop working, and 
then that will force the user to potentially select a different 
market where 9-1-1 is currently available, thus causing 
misrouting of calls, and we find that to be a very large 
concern.
    Senator Burns. Do you find that the responsibility is going 
to be just as much on the user as it is on you folks who 
provide the service?
    Mr. Citron. Yes.
    Senator Burns. That's the conclusion I drew, too. We thank 
you for your testimony today. And as we move this legislation 
forward, let's keep the communication lines open, and let us 
know the challenges you run into, and to make it work, and make 
it fair. Thank you for your testimony.
    We go to the second panel today, which is made up of Jeremy 
Ferkin, General Manager of CenturyTel; Jeff Brandt, Director, 
Montana Department of Administration; Bill Squires, Blackfoot 
Telecommunications Group; and Chairman Greg Jergeson, Montana 
Public Service Commission. So we welcome all of you. Have we 
got a change here?
    Ms. Kelly. I'm Jeff Brandt today. Janet Kelly, Director of 
the Department.
    Senator Burns. Yes. Okay. And again, we would like to have 
you kind of keep your testimony down to five minutes, and your 
full statement and anything that you want to put in the record 
will be received at this time.
    And Ms. Kelly, since you're the stand-in, you get to lead 
off today.

       STATEMENT OF JANET KELLY, DIRECTOR, DEPARTMENT OF 
                ADMINISTRATION, STATE OF MONTANA

    Ms. Kelly. Senator Burns, thank you so much for providing 
me with the opportunity to appear before you today. My name is 
Janet Kelly. I'm the Director of the Department of 
Administration. And I'm appearing today on behalf of the State 
of Montana because the Department of Administration has 
responsibility for managing the statewide 9-1-1 program.
    The State of Montana supports Senate Bill 1063 because it 
addresses a number of our concerns, and supports our efforts to 
provide the highest quality public safety services to the 
citizens of Montana. I would like to thank Senator Nelson for 
sponsoring the bill, and Senators Clinton, Kerry, Snowe, and 
Burns, co-sponsors.
    Senator Burns, you have been a leader on this issue, not 
only here in Montana, but throughout the Nation. 9-1-1 
services, let alone public safety technology, are not plug-and-
play operations. There have been exciting advances in 
communications technology that provide our citizens with 
greater choice and capabilities.
    However, we must be sure that the deployment of these new 
technologies does not interfere with our ability to provide 
important public safety services. The technology landscape is 
ever-changing, and Senate Bill 1063 will help ensure that 
public safety services will be available to all citizens, 
regardless of their choice of technology.
    Technological advances will continue to create new issues 
and challenges as businesses offer new services to our 
citizens. Therefore, additional legislation, regulation, and 
standards may be needed to be sure that our citizens are 
adequately served, and that the public safety community needs 
to have a place and a voice at that table.
    Montana is among the handful of states that has attained 
statewide basic 9-1-1. However, our citizens, even those living 
in remote areas, expect enhanced 9-1-1, and we met the 
challenge of deploying E-911 solutions across our state by the 
9-1-1 program office collaborating with the Montana Sheriffs 
and Peace Officers Association; and with the assistance of a 
Federal appropriation in fiscal year 2003, we have a statewide 
E-911 network project underway.
    Montana's 9-1-1 program is successful because of the 
cooperation among legislators, regulators, state and local 
government administrators, and the telephone industry; and our 
future success will require continued cooperation to solve the 
problems created by the new technologies and conditions that 
will impact the public safety community.
    Voice Over IP creates new opportunities and new challenges, 
and I will address these from the State of Montana's 
perspective. First, we need to safeguard the ability of 
Montanans to pay for the delivery of public safety services 
across our vast state.
    Montana is concerned with the potential for unfunded 
mandates that would impact our ability to update and maintain 
our infrastructure. We want to be sure that we're able to 
continue to work in enhancing existing technology, rather than 
having to deal with planned obsolescence or incompatible 
technologies. As the technology evolves, it must not interfere 
with the public's access to critical public safety services.
    Today's hearing reinforces the importance of the industry, 
Congress, and the public safety community working together, and 
I applaud the Committee's commitment and continued support of 
public safety in this country. The State of Montana is working 
on solutions, and embracing the new technology for public 
safety, and we stand ready to assist you in any way we can to 
make our Nation safer. Thank you.
    [The prepared statement of Ms. Kelly follows:]

      Prepared Statement of Janet Kelly, Director, Department of 
                    Administration, State of Montana

    Mr. Chairman, Members of the Committee, Senator Burns, thank you 
very much for providing me with this opportunity to appear before you 
today. My name is Janet Kelly, and I am the Director of the Department 
of Administration for the State of Montana. I am appearing today on 
behalf of the State of Montana because the Department of Administration 
has responsibility for managing Montana's Statewide 9-1-1 Program.
    The State of Montana offers its support for the IP-Enabled Voice 
Communications and Public Safety Act of 2005 (S. 1063). This bill 
addresses a number of concerns I will identify and supports our efforts 
in providing the highest quality public safety services to the citizens 
of Montana.
    Mr. Chairman, I would like to take this opportunity to thank 
Senator Nelson for sponsoring this bill and to Senators Clinton, Kerry, 
Snowe and Burns, its cosponsors. Senator Burns has been a leader on 
this issue, not only here in Montana but throughout the Nation. For 
example, in 1999 he sponsored the Wireless Communications and Public 
Safety Act, an important roadmap for deploying wireless 9-1-1.
    9-1-1 services, let alone public safety technology, are not a 
``plug and play'' operation. There have been exciting advances in 
communications technology that provide our citizens with greater choice 
and capabilities. But we must ensure that the deployment of these new 
technologies doesn't interfere with the ability to provide important 
public safety services. Furthermore, the technology landscape is ever-
changing. We must maintain vigilance so that critical public safety 
services continue to be provided as technology evolves. The legislation 
that Senator Burns and others have sponsored will be a valuable tool in 
ensuring that public safety services will be available to all citizens, 
regardless of their choice of technology.
    Undoubtedly, technological advances will create new issues and 
challenges as businesses offer new services to citizens. Legislation, 
regulations and standards may be needed to ensure the citizen is 
adequately served. The public safety community, in particular, needs to 
have a place and a voice at that table.
    The challenge of keeping pace with technology, let alone responding 
to the challenges that have been dropped on the doorstep of our 9-1-1 
Public Safety Answering Points (PSAPs), is a daunting task. In 
addition, we have limitations in our respective jurisdictions as to our 
authority and ability to enforce the rules. With limited funds and a 
small population spread across a vast state, we knew we had to work 
together. So in Montana we collaborated with local, state and Federal 
partners.
    In 2002, the Governor's office created the Public Safety Services 
Bureau in the Department of Administration. The Public Safety Services 
Bureau manages the State's 9-1-1 Program and statewide planning of 
public safety radio communications.
    Montana is among the handful of states that have attained statewide 
basic 9-1-1 service, but the public, even in remote areas, expects 
enhanced 9-1-1 service. When faced with the challenge of deploying E-
911 solutions across the State, the 9-1-1 Program office collaborated 
with the Montana Sheriff's and Peace Officers' Association, and, with 
the assistance of a FY03 Federal appropriation, a statewide E-911 
network project is underway. Montana's 9-1-1 program is successful 
because of the cooperation among legislators, regulators, state and 
local government administrators and the telephone industry. Our future 
success will require continued cooperation to solve the problems caused 
by new technology and conditions that will impact the public safety 
community.
    Now we turn our attention to VoIP. Like most technologies, it 
creates new opportunities but also new challenges. I applaud the bill 
sponsors for tackling these new challenges. I will address these 
challenges from the State of Montana's perspective.
    First, we need to safeguard the ability for Montanans to pay for 
the delivery of public safety services across Montana's vast territory. 
We are concerned with the potential for unfunded mandates that would 
impact our ability to update and maintain our infrastructure.
    We want to be sure that we will be able to continue to work to 
enhance existing technology rather than having to deal with planned 
obsolescence or incompatible technologies.
    We want to be sure that our citizens continue to have access to 
public safety services. As technology evolves, it must not interfere 
with the public's access to critical public safety services.
    This hearing today reinforces the importance of the industry, 
Congress and the public safety community working together, and I 
applaud the Committee's commitment, efforts and continued support of 
public safety in this country.
    The State of Montana is working on solutions and embracing the new 
technology for public safety; and we stand ready to assist you in any 
way we can to make our Nation safer.
    Thank you.

    Senator Burns. Thank you for your testimony. We'll hear 
from Mr. Jeremy Ferkin, General Manager of CenturyTel.

 STATEMENT OF JEREMY FERKIN, GENERAL MANAGER, CENTURYTEL, INC.

    Mr. Ferkin. Thank you, Senator. We are pleased to be the--
as the State so-called it--the one throat to choke providing 
the E-911 services for the state of Montana. As our testimony 
has been submitted, and questions you've asked, I'll get right 
to the issues that really speak to the heart of S. 1063, and 
also the issues that we're focused on.
    Liability is the number one paramount issue we've had to 
deal with negotiating with the State of Montana, and is also 
the issue that we face in the 26 states we serve across the 
United States. There's a patchwork of liability issues 
throughout the country, and we believe, like NENA, like the 
other testimony that you received, it's the first issue that we 
really think needs to be addressed.
    Limitation of liability isn't a balloon management issue. 
You don't squeeze it in one area, and it pops out, and someone 
else has the liability over here. It is a matter of who is 
going to put money forward, and who is going to be willing to 
step out and be a different company, and just say that this is 
bigger than any one person's event. 9-1-1 is that event we all 
have to be concerned about.
    So the other side of it is we know that Voice Over Internet 
is not a technology issue. We heard Mr. Citron and everybody 
else speak too. The technology is not the problem with 
implementing. The relationships, and negotiation, and 
navigation is where the issues typically happen.
    That's not dissimilar to what we experience in the state of 
Montana, with all the different PSAPs, all the different vested 
entities in this. So I don't know that it's legislation, but we 
do know that relationships are the key to making this happen. 
As Montanans, we all know that if you know people, you know how 
to get stuff done.
    The other part of S. 1063 that we believe is critically 
important is the transition period that the FCC put out there. 
I'm glad to hear that Mr. Citron believes that the time line is 
semi-satisfactory. We believe that there are implications to E-
911 implementation on IP that possibly are not thought of long 
term.
    For instance, what if IP isn't the underlying protocol 
that's going to be used five years, ten years from now? So 
whatever legislation goes on needs to address further 
technologies and further applications that may be out there, 
whether it's SIP (phonetic) based, which is the newest, latest, 
greatest thing that we talked about, or whether it's neural 
implants, we don't know. But technology will change.
    The additional focus S. 1063 addresses, but does not fully 
address, is the compensation side of what's going to happen. So 
if we are required to open up access, that access is going to 
put more costs on whoever is providing those 9-1-1 services. 
That funding, as was spoken about earlier, where does that come 
from? That additional expense, is that borne by us? If so, does 
it negate or does it require us to actually not want to be a 9-
1-1 service provider? That would be a catastrophic event, to 
have people who are stepping out to provide the service, being 
encumbered, to have to pay for service that they don't benefit 
in any way from.
    We also believe that, as we talked about, the liability 
issues. But some general issues that are out there, is if 
you're on the network, if you're utilizing the network, 
compensation is the biggest issue. So they boil down to two 
issues. Liability is the biggest issue; and then compensation 
for how do we fund it, and how do we navigate it for those who 
own that infrastructure.
    [The prepared statement of Mr. Ferkin follows:]

 Prepared Statement of Jeremy Ferkin, General Manager, CenturyTel, Inc.

    Senator Burns and Members of the Committee, thank you very much for 
providing me with this opportunity to appear before you today. My name 
is Jeremy Ferkin, and I am General Manager for CenturyTel operations in 
Kalispell, Montana. I am pleased to have this opportunity to discuss 
Voice Over Internet Protocol (VoIP), its implications for Emergency 9-
1-1 (E-911) and, more specifically, the Senate E-911 bill entitled 
``IP-Enabled Voice Communications and Public Safety Act of 2005'' (S. 
1063).
    CenturyTel serves more than 63,000 customers in the Flathead Valley 
of Montana and was recently selected to be the 9-1-1 provider for the 
state. In addition to our Montana operations, CenturyTel is also a 
national telecommunications company and a leading provider of broadband 
services in rural America. We are a leading provider of 
telecommunications services in 26 states that include many of the 
states represented by Members of this Committee including Montana, 
Texas, Mississippi, Nevada, Oregon, Louisiana, Washington, Arizona and 
Arkansas. We specialize in providing high quality telephone, long 
distance, Internet, broadband, satellite and advanced services in rural 
and small urban markets. Today, CenturyTel is the eighth largest 
telephone company in the United States with 2.3 million access lines. 
Much of CenturyTel's recent growth has come from the acquisition of 
telephone lines from the larger Bell Operating Companies in multiple 
states. The majority of our 3 million customers and 7,000 employees 
live and work in the very areas that have the most critical stake in 
the issue we will discuss today.
Voice Over Internet Protocol
    CenturyTel is excited about the introduction of IP-enabled services 
in the marketplace and about deploying new technologies and creating 
new services for our customers and communities. CenturyTel already 
offers IP-based services to many of our business customers across the 
country. That said, CenturyTel believes an appropriate transition 
period will be required for full-scale delivery of IP-enabled services 
to all Americans. Related, but critical, features such as law 
enforcement capabilities and access to emergency services must be 
readily available and tested because of the technical aspects and 
dynamics of IP technology.
    VoIP is an example of even better things to come, as our industry 
increasingly integrates with the computer hardware, software, and 
entertainment sectors. Internet Protocol is blowing the voice market 
wide open, allowing a variety of providers to serve ``some'' business 
and residential customers. I say ``some customers'' because, that VoIP 
service will not work unless a facilities-based provider like 
CenturyTel or the local cable company has made the network investment 
required to enable a broadband connection that VoIP needs to work 
properly.
    CenturyTel and companies like it are building rural America's 
broadband network. Building robust rural networks requires expertise, 
commitment, access to capital and substantial investment--all without 
the assurance of a high density customer base to make a business case. 
While CenturyTel only averages 14 access lines per square mile and 
seventy-five percent of our customers are residential, more than 
seventy percent of our customers nationwide have access to CenturyTel 
DSL. In the State of Montana alone, almost ninety-six percent of 
CenturyTel's sixty-three thousand access lines are DSL-enabled, and a 
significant portion of our one hundred fifty-six million dollar total 
investment went towards deployment of broadband to enable advanced 
services. Advanced communications networks like ours are the foundation 
for realizing the promise of IP-enabled services like switched digital 
video and other new services yet to emerge. Quite simply, you can't 
deliver the promise of IP without a high capacity network.
    Without question, the further integration of IP-enabled services as 
a telecommunications alternative offers both challenges and 
opportunities for local telecommunications companies. We have adapted 
to a new world of rapid-paced innovation and intense competition from a 
wide variety of players. Equally true, this new reality is forcing 
fundamental shifts in our industry--from proposed mega-mergers to the 
new services and choices our companies are rolling out. Now, the 
Nation's communications policy must adapt as well. Since we have barely 
scratched the surface of broadband's potential to produce a whole new 
generation of innovative applications, I appreciate knowing that this 
Committee has proposed to write policies that broadly encourage network 
investment and product innovation far beyond first-generation VoIP.
Importance of E-911 Capabilities for IP-Enabled Services
    AT&T first made ``9-1-1'' available nationally for wireline access 
to emergency services in 1965, and since that time, the American 
public's dependence on 9-1-1 service has continued to increase. The 
National Emergency Number Association (NENA) estimates that some form 
of 9-1-1 service is available to 99 percent of the population in 96 
percent of the counties in the United States, and roughly 200 million 
calls are made to 9-1-1 in the United States each year. CenturyTel 
supports the concept advanced by the Federal Communications Commission 
(FCC) that a service or device should be subject to 9-1-1/E-911 
regulation if the customers using such service or device have a 
``reasonable expectation of access to 9-1-1 and E-911 services.'' 
Indeed, providing reliable and secure 9-1-1 and E-911 services has 
become a necessary cost of doing business for all voice providers, 
regardless of platform used.
    The American public's expectations for access to emergency services 
have not diminished, but admittedly have become more challenging to 
meet, as new technologies for delivering voice communications have 
arisen and as consumers have become more mobile. The wireless industry 
can attest to the challenges in implementing emergency services in an 
increasingly mobile environment. No doubt, IP-enabled voice 
communications is another technology that will present challenges in 
implementing emergency services because it can be delivered using so 
many different platforms. However, the time is NOW to address the 
unique challenges VoIP presents for having access to emergency 
services. Intrado, a national provider of 9-1-1 database management 
services, projects a nearly tenfold increase in expected VoIP 9-1-1 
calls from 2004 to 2006, to a total of 3.5 million residential VoIP 9-
1-1 calls in 2006, as this new communication technology becomes more 
widespread.
    Unfortunately, recent incidents in Texas, Florida and Connecticut 
have brought to the forefront the need to address public safety issues 
related to IP-enabled voice communications. By now everyone has 
probably heard about the family in Houston, Texas who was in need of 
emergency assistance when an intruder entered their home and attempted 
to burglarize the family at gunpoint. During the incident, a 9-1-1 call 
using an interconnected VoIP service was unable to be completed, thus 
delaying dispatch of an ambulance for the wounded homeowners. The 
incidents in Florida and Connecticut were just as traumatic and 
harrowing.
    We applaud Congress for introducing S. 1063 (and likewise H.R. 2418 
in the House) and holding this field hearing in light of the reasons 
listed above. While the FCC has issued an Order and Notice of Proposed 
Rulemaking on E-911 requirements for IP-enabled service providers, we 
are glad Congress has stepped in to address those issues where the FCC 
believes it lacks jurisdiction--namely, requiring incumbent local 
exchange carriers (ILECs) to give VoIP providers access to emergency 
services infrastructure and immunity from liability for providing 9-1-1 
services. We also believe S. 1063 provides more clarity than the FCC's 
Order on some issues crucial to owners of emergency services 
infrastructure and can hopefully move more swiftly towards resolution 
of these critical issues. I will discuss S. 1063 and those other 
crucial issues more fully in the remarks that follow.
Appropriate Compensation for Access to Emergency Infrastructure
    S. 1063 contains a provision that requires entities with ownership 
or control of emergency services infrastructure to ``provide any 
requesting IP-enabled voice service provider with nondiscriminatory 
access to their equipment, network, databases, interfaces and any other 
related capabilities necessary for the delivery and completion of 9-1-1 
and E-911 calls and information related to such 9-1-1 or E-911 calls.'' 
The owner ``shall provide access to the infrastructure at just and 
reasonable, nondiscriminatory rates, terms and conditions.'' CenturyTel 
is pleased S. 1063 addresses this issue and believes the FCC's June 3, 
2005 Order does not fully address the issue of requiring VoIP providers 
to compensate owners of emergency services infrastructure. CenturyTel, 
like other local telephone companies, has invested in networks capable 
of connecting our customers to life-saving services such as 9-1-1, and 
we believe that providing 9-1-1 access is a legitimate cost of doing 
business for all voice providers.
    CenturyTel believes that creating a seamless public safety and 
reliability standard for all voice service providers is the best public 
policy and VoIP providers should be held to the same public safety and 
reliability standards as other voice providers. To require less of a 
provider merely because a different technology is used to facilitate 
the voice call is not in the public's best interest. In addition, VoIP 
providers should properly compensate incumbent carriers for access to 
their 9-1-1 infrastructure. ILECs should not have mandates to provide 
9-1-1 and related services to VoIP providers for free.
    Today, CenturyTel either owns the emergency services infrastructure 
in a particular area or properly compensates other owners of emergency 
services infrastructure in areas where CenturyTel is not itself the 
owner. Generally, a telecommunications carrier can either access 
emergency services infrastructure under a tariff arrangement or through 
an interconnection agreement, depending on the requirements in each 
specific state. Under the current sections 251 and 271 requirements in 
the Telecommunications Act of 1996, the VoIP provider either has to 
declare itself a ``certificated'' telecommunications carrier or 
negotiate access to emergency services infrastructure through a third 
party competitive LEC. Facilities-based providers must have assurances 
that VoIP providers have a requirement to adequately compensate those 
who make the necessary investment for access to emergency services 
infrastructure. Such compensation should be made at a level that 
adequately covers the actual costs of ownership of emergency services 
infrastructure. The tariff process provides sufficient protection for 
all providers involved in such an arrangement.
Liability Concerns
    This past June, CenturyTel and the State of Montana entered into a 
contract under which CenturyTel will provide 9-1-1 services throughout 
the entire State of Montana. During the negotiations for this contract, 
it became apparent that a major concern for all stakeholders throughout 
the emergency services industry is liability in the event something 
goes wrong in the process. While S. 1063 does contain a provision that 
gives providers of IP-enabled voice service immunity or other 
protection from liability of a scope and extent that is not less than 
that given to any local exchange company under applicable Federal and 
State law (whether through statute, judicial decision, tariffs filed by 
such local exchange company, or otherwise), CenturyTel feels more 
inquiry and work needs to be done to develop this issue further.
    Statutes providing immunity and limitations of liability for 9-1-1 
service providers vary widely from state to state and in many cases do 
not really provide the liability protections that may be appropriate 
for telecommunications companies, Public Safety Answering Points 
(PSAPs), emergency services personnel, and local governments. 
CenturyTel believes Congress should develop a Federal statute that 
provides meaningful limitation of liability provisions for all parties 
to add some consistency to the process and supplant the patchwork of 
state statutes currently addressing liability issues. To be clear, 
CenturyTel proposes a Federal statute that provides immunity from 
liability for all parties who act without willful or wanton conduct in 
the execution and provision of a 9-1-1 call, similar to that codified 
in Oregon Revised Statutes Sec. 401.715 (2003), as follows:

          ``No provider . . . or any other person that supplies 9-1-1 
        emergency reporting system equipment . . . or the 9-1-1 
        jurisdiction . . . shall be held civilly liable for the 
        installation, performance, provision or maintenance of a 9-1-1 
        emergency reporting system or enhanced 9-1-1 telephone service 
        if the provider . . . supplier . . . or the 9-1-1 jurisdiction 
        . . . act without willful or wanton conduct.''
Key Policy Decisions Facing Congress and the FCC
    Congress should affirm that those using the network must pay for 
their use. ``Phantom traffic'' and other payment avoidance schemes 
really are just theft, plain and simple. Advanced communications 
networks are the foundation for realizing the promise of IP-enabled 
services and without investments by companies like CenturyTel, there 
would be no broadband connection, no VoIP and ultimately no services 
like switched digital video or telemedicine.
    Congress should support the 21st century network through 
maintaining the Nation's commitment to Universal Service. Congress 
should support stability in universal service by broadening the base of 
support to include all providers of voice service, including VoIP, and 
setting high standards in order to receive universal service. Also, 
because of broadband's importance to the future of advanced services 
deployment, consideration should be given to providing explicit support 
for broadband deployment.
    Congress should continue to address social and public safety 
concerns in an ever changing technological and mobile environment. The 
tragic events of 9/11 and in Texas, Connecticut and Florida have 
highlighted the sense of urgency in this area. Congress can simply make 
clear that public safety responsibilities apply to all, and must be 
fulfilled as a necessary requirement for all providers.
    Congress should make clear that VoIP providers who are given 
nondiscriminatory access to emergency services infrastructure must pay 
adequate compensation to local telephone companies and other owners of 
such infrastructure in an amount that adequately covers the actual 
costs of ownership of the infrastructure. 9-1-1 is a legitimate cost of 
doing business for all voice providers and need not be borne entirely 
by customers. Without such assurances, no one will voluntarily want to 
be an owner of this emergency services infrastructure. Therefore, those 
companies that ``step up to the plate'' should be protected for their 
commitment to public safety.
    Congress should develop a Federal standard that addresses 
limitation of liability issues in the provision of E-911 services. 
Today's patchwork of state statutes presents significant difficulties 
for stakeholders who seek to understand their rights, responsibilities 
and potential liabilities with regard to implementation and provision 
of 9-1-1 services. A national program like 9-1-1 that requires so much 
cooperation between all stakeholders across the country should not be 
subject to the politics and whims and desires of each state if it is to 
work as seamlessly as the American public desires.
Conclusion
    Senator Burns, we thank you for holding this hearing. I think 
everyone understands the importance of VoIP and E-911 to the Nation's 
economy and consumers and can appreciate that your decisions in this 
area will help shape the future of telecommunications and consumer 
safety. CenturyTel is eager to work with you in the future and hopes 
that you will seriously consider the points we make here today. I thank 
you for the opportunity to join you today and look forward to your 
questions.

    Senator Burns. Thank you very much. A question arising from 
that also. Now we'll hear from Bill Squires, Blackfoot 
Telecommunications Group, and he follows the compliance issues 
very closely. Bill, thank you for coming today.

 STATEMENT OF WILLIAM SQUIRES, SR. VICE PRESIDENT AND GENERAL 
          COUNSEL, BLACKFOOT TELECOMMUNICATIONS GROUP

    Mr. Squires. Thank you very much, Senator. My testimony has 
been submitted, so I'll depart actually greatly from that, 
because I think the testimony I've submitted, I would encourage 
the Committee to consider.
    But it addresses--much like the rest of the testimony--VoIP 
issues, and how that hits our rural company. I talked to Monica 
this morning, and she also asked me to address some of the 
wireless compliance issues, so I'll do my best to hit those.
    For the record, my name is Bill Squires. I'm Senior Vice 
President and General Counsel for Blackfoot Telecommunications 
Group, which is headquartered in Missoula. On behalf of our 
company, I very much appreciate the opportunity to appear at 
this hearing today.
    Our company started in 1954, Senator, and its mission at 
that time, and now, continues to be bringing the best in 
communications to rural Montana. Part of that mission involves 
the safety and security of our members and our neighbors, and 
we do that largely through E-911.
    The critical issues that you've already heard about from 
other witnesses here today, I'll just reiterate briefly some of 
the things that concern us as a rural provider in Montana.
    Jeremy Ferkin just hit on compensation issues. Certainly 
that's an issue for us. We don't have objections with access to 
our network for VoIP providers in order to enable E-911 
services; but as you're keenly aware, the cost of providing 
services in rural Montana is extreme. Certainly we're greatly 
dependent on Universal Service Funds for that; and as Jeremy 
Ferkin stated, the people that use the network do have to 
adequately compensate our members and our company for that kind 
of access.
    As somewhat of a side note to that same issue, Senator, I 
urge you and Members of the Committee to reconcile that access 
requirement in Senate Bill 1063 with the rural exemptions in 
the 1996 Telecom Act. As you're aware, there are some 
provisions in that act that give protection to rural companies 
to opening their network and their network elements to other 
companies in order to protect the viability of rural 
telecommunications. We need to ensure that the access 
provisions of Senate Bill 1063 do not negate those protections 
that were built into the 1996 Act.
    Certainly the liability parity issues, I think that we 
certainly would and do support. Montana has a pretty good 
statute on liability protection for telephone providers, 
traditional telephone companies, when it comes to providing E-
911, and I think it makes perfect sense to extend that same 
protection to providers of VoIP services.
    Certainly the biggest problem we're facing, Senator, in the 
trenches is rural addressing, an issue I know you're familiar 
with, but it's one that continues to haunt our implementation 
of E-911, particularly certainly on the wireline side.
    In my own county, in Missoula County, where Qwest is the 
RBOC provider to Missoula, and we're the independent provider 
to the communities surrounding Missoula, such as Seeley Lake, 
Clinton, etc., that are also in Missoula County, the data was 
validated to a sufficient level from a population percentage 
standpoint to roll out E-911 simply by validating the MSAG for 
the Missoula urban area, if we can call it that, without having 
to validate rural addressing for the rural areas.
    And so E-911 has been implemented in Missoula County, 
really to the exclusion of the rural areas, and that's 
something that has to be addressed, I think, with the standards 
that you have heard from other witnesses about. The counties 
that we work with are very good about cooperating with us, but 
the fact of the matter is they're all doing their own thing, 
and we do need some standards to allow us to interact with 
counties on the same basis.
    Briefly, Senator, I'll just touch on wireless issues in the 
interests of full disclosure. We continue to operate a wireless 
business in western Montana, but we've sold it. We're no longer 
the owners of the wireless business, although we're the 
operators currently. I'm pleased and proud to report to you 
today that that system is fully compliant with the provisions 
of wireless E-911. We've met all of the standards to date, and 
we have no doubt that we'll hit full compliance under the 
current statute.
    And I would be happy to address any questions you may have 
with wireless compliance as well. Again, thank you for the 
opportunity, Senator.
    [The prepared statement of Mr. Squires follows:]

 Prepared Statement of William Squires, Sr. Vice President and General 
              Counsel, Blackfoot Telecommunications Group

Introduction
    Senator Burns, my name is Bill Squires. I am the Sr. Vice President 
and General Counsel for the Blackfoot Telecommunications Group 
headquartered in Missoula, Montana. Blackfoot is both an incumbent 
rural telephone company, providing service to approximately 18,000 
customer access lines in rural western Montana, and a competitive local 
exchange carrier, providing competitive telecommunications services to 
the Missoula market.
Support for Senate Bill 1063
    Since 1954 when Blackfoot began service as a small rural telephone 
cooperative, it has done so in large part to provide our rural members 
with much needed contact with others, including vital access to 
emergency services. The continuing development of our global economy, 
and the absolute need for Montana to be a player in that economy, 
dictates that our telecommunications networks and services be on par 
with those in much larger urban areas--and they are. However, we must 
always have as our first goal the safety and security of our families 
and our neighbors. To that end, we applaud the introduction of Senate 
Bill 1063, and very much appreciate your co-sponsorship of this 
important legislation.
    There is a great deal of ``buzz'' surrounding the virtues of IP-
Enabled Voice Services, or ``VoIP'' as it has been dubbed. To be sure, 
this technology represents significant advances in not only network 
utilization and efficiency, but in customer choice flexibility. With 
that flexibility comes the heightened obligation to ensure, to the 
greatest extent possible, that all our customers, including those in 
our rural areas, will have the benefits of Enhanced-911 services should 
they ever be needed. Senate Bill 1063 takes many important steps in 
ensuring that E-911 services will be available to VoIP customers.
Implementation Realities
    Senate Bill 1063 delegates to the Federal Communications Commission 
the authority to prescribe regulations in order to establish a set of 
requirements on providers of IP-Enabled Voice Services. Section 2(b) of 
the bill would require companies such as Blackfoot to provide non-
discriminatory access to emergency services infrastructure. While 
Blackfoot certainly does not object to this requirement, I implore you 
to be as specific as possible in the Congressional Record regarding 
just what is meant by such ``nondiscriminatory'' access, as well as the 
cost recovery mechanisms for such infrastructure. With a limited 
customer base, Blackfoot and similar companies simply cannot absorb a 
great deal of additional expense relating to updates to master 
databases of location information. This process can be complicated by 
the dynamic nature of IP devices, meaning that location databases may 
need to essentially have immediate updates whenever a user of this 
service changes location. I would suggest that, similar to wireless E-
911, a simpler and more cost effective implementation regime may be to 
require, over time, that all VoIP devices be GPS-equipped.
    Any non-discriminatory system will undoubtedly involve updating of 
customer support software. Again, the Commission's rules should provide 
for the fair recovery of these costs.
    As an aside, and somewhat out of the scope of this hearing, I also 
encourage the Committee, and the Commission, to reconcile the bill's 
``non-discriminatory access'' provisions with the overriding provisions 
of Section 251(f) of the Telecommunications Act of 1996, which exempts 
rural telephone companies such as Blackfoot Telephone Cooperative from 
certain ``unbundling'' requirements otherwise imposed by that Act.
    Finally, I would be remiss if I did not comment on the biggest 
obstacle to date in implementing E-911 in rural service areas, and that 
is the issue of rural addressing and county-state collaboration. 
Regarding addressing, some counties in Montana have contracted with 
third-parties to do rural addressing, and it is working very well. 
However, some counties have chosen to undertake the addressing 
themselves. This has led to delays in completing rural addressing in a 
timely manner. In Missoula County, for instance, E-911 has been 
implemented without completion of addressing in many of the rural areas 
served by Blackfoot.
    Compounding this issue is the lack of mandated standards for 
addressing. While the state has set forth recommended standards, each 
county is free to implement addressing in their own way. It may sound 
tedious, but designations such as ``Lane'', ``In'', or ``Ine'' have 
significant database implications. Similarly, inconsistencies in 
databases maintained by some E-911 providers cause a great deal of 
delay, and expense, in scrubbing data. Future funding and 
implementation regulations can be used by the Commission to entice more 
counties to move toward standards, and for providers to pay greater 
attention to clean data.
Conclusion
    Again, on behalf of Blackfoot Telecommunications and similar rural 
telephone companies, I would like to thank you for bringing forward 
this important legislation. As with any legislation, the devil 
certainly is in the implementation details, and I commit to work with 
you, your staff, the Commission, and other interested parties to see 
that this legislation brings to rural Montana the benefits of E-911 
services, while allowing us all to realize the opportunities brought by 
VoIP services.

    Senator Burns. Thank you, Mr. Squires. I appreciate that 
very much. Mr. Greg Jergeson, Public Service Commission of 
Montana. Welcome.

STATEMENT OF GREG JERGESON, CHAIRMAN, PUBLIC SERVICE COMMISSION 
                           OF MONTANA

    Mr. Jergeson. Thank you, Senator Burns, for having invited 
me to appear before your Committee today.
    I want to express my appreciation that you're holding this 
important hearing in Montana, the state that you and I both 
represent as public servants, and it's a special honor, 
frankly, for me that you choose to have this hearing in Cascade 
County, which turns out to be a cornerstone community of my own 
Public Service Commission District No. 1, which runs from here 
north to the Canadian border, and east to North Dakota; and if 
there's a definition of rural, that probably is PSC District 1. 
So I appreciate you bringing this hearing here today.
    One of the first things I learned back in 1975 when I 
entered the Montana Senate as a fresh faced, really gung-ho 
kind of guy, was some of the older hands said, ``The first bit 
of advice is don't filibuster your own bills to death;'' and 
though this is not my bill, I do support it, and I don't wish 
to filibuster your bill to death, Senator. So I'm going to keep 
my remarks fairly short.
    We've submitted written testimony. I'll just kind of 
paraphrase some of the items in the written testimony, and then 
be happy, like the others, to answer any questions you may 
have.
    Clearly Montana citizens expect that when they dial 9-1-1, 
that that will get them the service that they need in whatever 
emergency situation they're experiencing, irrespective of who 
their telecom or communications provider is, be it wireline, 
wireless, or VoIP; and the Montana PSC believes that this bill 
is important, in that it is designed to make sure that that 
accepted universal service by almost everybody in the public is 
observed.
    The other thing important about it, we find that sometimes 
on the Montana PSC, we think that we have authority to do 
certain things, but we get a certain comfort level by going to 
our Legislature and saying, ``We would like to have that 
authority expressly put into the statutes,'' and I think much 
of your bill does that very same thing with respect to the FCC 
ruling that came out on this particular subject, is that it 
will clearly clarify that in fact the FCC had that authority.
    From my perspective as Chairman of the State Public Service 
Commission, we appreciate the provisions in your bill, 
particularly Section 2(h), which permits the FCC to delegate to 
the state commissions implementation and enforcement of the 
national rules. We appreciate Section 2(c) that clarifies that 
nothing in these Federal laws or rules will prevent the 
collection of fees on a non-discriminatory basis from the 
providers, provided that that revenue is dedicated to the 9-1-1 
purposes.
    I've attached to my testimony a resolution passed by the 
National Association of Regulatory Utility Commissioners at 
their summer meeting in Austin, Texas this summer in support of 
the provisions of this bill, and believe that that gives 
clearly a nationwide feel to the support for this fine bill.
    As a final observation, I would note that this bill and its 
requirements that all service providers share in the delivery 
of this essential universal service demonstrates that the 
distinction some would make between information services and 
telecommunications services is in fact a distinction without a 
difference. And I support this bill, and I can think of no 
reason why it shouldn't pass without delay. I commend you for 
your sponsoring this bill, and your co-sponsors as well, and I 
thank you for this opportunity to testify.
    [The prepared statement of Mr. Jergeson follows:]

     Prepared Statement of Greg Jergeson, Chairman, Public Service 
                         Commission of Montana

    Montana citizens who dial 9-1-1 expect to be connected to emergency 
services personnel. This expectation exists no matter what kind of 
telephone service they are using--wireline, wireless or the newest 
telecom technology, broadband/VoIP. This bill goes hand in hand with, 
and strengthens, the recent FCC action to require VoIP companies to 
provide their customers with the same E-911 calling capability that 
other telephone companies provide.
    It is essential to public safety that VoIP providers be required to 
make this vital emergency service available to all of their customers 
without delay. This bill does that, and more. It also recognizes that 
traditional phone companies own the existing E-911 infrastructure and 
mandates that those companies give VoIP providers access to their 9-1-1 
networks on a nondiscriminatory basis and at reasonable rates. And, 
just in case there is any ambiguity in current law about the FCC's 
authority to act on VoIP E-911, this bill explicitly provides the FCC 
with that authority.
    From my perspective as chairman of a state public service 
commission, it is important to retain the provisions in the bill that 
recognize the role of states in the provision of E-911 emergency 
services. In particular, Section 2(h) of the bill, which permits the 
FCC to delegate implementation and enforcement of the national 9-1-1 
rules to state commissions, should be retained. State commissions are 
the agencies best situated to implement and enforce national 9-1-1 
standards concerning the telecommunications providers operating in 
their states.
    In addition, Section 2(c) clarifies that nothing in the bill or in 
Federal law or rules prevents states from collecting 9-1-1 fees from 
VoIP phone companies, in the same way fees are collected from other 
phone companies, if none of the collected revenue is diverted for non-
9-1-1 purposes. This, too, is an important feature of this bill. 
Certainly the state of Montana should be able to require VoIP companies 
to share the same responsibility for supporting Montana's 9-1-1 program 
as other types of phone companies currently do.
    I note for the record that the National Association of Regulatory 
Utility Commissioners, which includes the Montana PSC, adopted a 
resolution at its summer meeting that commended you for introducing 
this legislation and stated the organization's commitment to working 
with Congress, the FCC and the industry on this issue. I've attached a 
copy of the NARUC resolution to my testimony. NARUC is particularly 
interested in preserving the productive state commission role in 
arbitrating and enforcing interconnection to 9-1-1 and E-911 trunk 
lines and hopes to clarify that role as this bill moves forward.
    As final observation, I would note that this bill and its 
requirements that all service providers share in the delivery of this 
essential universal service demonstrates that the distinction some 
would make between information services and telecommunications services 
is, in fact, a distinction without a difference.
    I support this bill and can think of no reason why it shouldn't be 
enacted without delay by Congress. I commend Senator Burns for 
sponsoring it as well as for his continuing support of Montana's E-911 
program. Thank you for the opportunity to testify.

    Senator Burns. Thank you. Commissioner Jergeson, can you 
answer a question? Nine times out of ten, we start going down 
the road of legislation, and we wrestle with definitions. Are 
we going to have to change some of the definitions between, 
say, communications and information services?
    Mr. Jergeson. Well, I think maybe we need to review what 
kind of definitions the various parties are trying to put to 
those kinds of services, and beware that they may be making 
distinctions that serve their purposes, and that we may need to 
make sure that we have a definition that meets the old adage 
about the nature of the duck, how it walks and quacks.
    Senator Burns. That's a good answer. Mr. Squires, would you 
like to comment on that? Because we don't always define the 
same things the same way, and whenever we start down this, I 
just think if we define them right off the bat, then it makes 
our job a lot easier.
    Mr. Squires. It would, Senator. I agree with that. As I was 
listening to the question and Chairman Jergeson's response, I 
was thinking of the duck adage. You beat me to it.
    You heard testimony from someone--and I apologize. I can't 
remember which one it was--on the panel right before us that 
essentially if it's a voice call, then it's a 
telecommunications service. And I would absolutely agree with 
that.
    If it's a two-way voice call, where I'm picking up my 
phone, and calling your office, even though that is carried 
over IP protocol, that's a telecommunications service; and if 
there are advantages to be gained in the market--be they 
regulatory advantages, or other competitive advantages--by 
trying to shoehorn something into an information services 
definition, I think companies will do that, and I don't think 
there's necessarily anything wrong with that. That gives them a 
competitive advantage.
    That's why I do think it's important that legislation and 
regulatory rules clarify just what is a telecommunications 
service, and in my mind, it's just pretty simple. It's a two-
way conversation.
    Senator Burns. Same, Jeremy?
    Mr. Ferkin. The only thing I would add to it is, since 
we're on adages, follow the money. Why are people creating a 
differentiation between an information service and a 
telecommunications service? And in most cases, it's to get 
around paying for whomever's network you're using. There is no 
IP without CenturyTel and companies like Blackfoot building the 
broadband infrastructure out to your home, your ranch, or 
wherever it may be.
    So Vonage could not exist without our infrastructure. And 
if they're utilizing our infrastructure, and the voice 
communications over it that are being used in such a manner 
that it takes revenue away from us, so we then are more 
dependent on things like USF for other things. Then if it 
quacks like a duck, it walks like a duck, it's a duck. The 
reality is. Voice is voice.
    Senator Burns. Let's talk about mapping and addressing. 
That seems to be a concern. Why is it so difficult that we 
can't get correct mapping for locations for our different 
emergency centers? What's the problem that we run into in 
mapping?
    Mr. Squires. Senator, the problem that quite simply we run 
into in our area is resources. It's expensive. Typically 
counties will hire consultants, or can hire consultants--there 
are several companies out there that do this--to essentially go 
around and GPS every farmhouse, every home, every business out 
in our service area. It's expensive.
    So resources, I think, are the number one issue. I think 
counties are doing the best they can, but they don't have the 
human resources or the financial resources to complete the job. 
And to the extent that Congress can help them with those 
resources, I think that would go a great, great way towards 
getting rural addressing and rural mapping done.
    The other issue, of course, is that people hate to change 
their address. We have to change our address in Granite County, 
at Georgetown Lake, because we're on the opposite side of the 
road. We have to be an odd number, not an even number. And 
that's fine for a cabin, but a business hates to change their 
address. And so from that standpoint, there's certainly some 
customer reluctance to do it, but the main problem is 
resources. The counties need the money to get it done.
    Senator Burns. When you go Voice Over IP, addressing 
becomes even more important, because when you move your 
computer, that is not noted whenever they call it in that he's 
moved to another city, even though it may be in the same area 
that the telephone company or whoever serves. Is that a 
problem, and should some responsibility be incumbent on the 
computer user or the person using the Voice Over IP services?
    Mr. Squires. Certainly I think it should be, Senator. I 
think there are some personal responsibilities that people have 
to take. And mobility in our society causes an increase, I 
think, of some of that responsibility.
    Some of our technical folks think that we should get to the 
point where we track VoIP devices just like we do cell phones, 
use GPS. That's several years down the road, and right now 
there's the expense, and there's privacy issues certainly that 
go with that. But that can go a long ways towards taking care 
of that mobility problem.
    Senator Burns. Mr. Jergeson.
    Mr. Jergeson. Well, I think that it's extremely important 
that somehow that person is located, and the technology 
probably exists to accomplish that. But the other thing that is 
important, I think, in this whole realm or whether or not we 
have effective 9-1-1 is whether or not the various technologies 
have coverage. I think the cell phones in so many areas of the 
state being dead spots in Montana. Your cell phone might be 
able to tell somebody where you're at, but if you're not in a 
place where you can get a signal, you can't complete the call 
to begin with.
    Therefore, I think that's a major consideration as we work 
on improving and fixing our 9-1-1 systems, is that part of that 
needs to be able to make the coverage of these various 
technologies available almost everywhere.
    Senator Burns. Jeremy.
    Mr. Ferkin. Most of the--as you mentioned earlier--the dark 
suited people are carrying devices similar to this, 
Blackberries or whatever they may be. So I think our laptops 
and our concerns about the mobile computer are going to be a 
temporal issue. We have On Star in most of our vehicles. 
Commission Jergeson speaks perfectly about the fact that we 
still have issues where there aren't cell coverage areas in 
Montana. So regardless of whether you won't be able to get 
VoIP, you won't be able to get cell coverage issue, but more 
and more people are going to a highly mobile device.
    By the way, this has a GPS chip in it, so you don't have to 
think about that. So I think we have a time period here where 
laptops are going to continue to be of use, but Federal 
statutes could step in and say GPS devices need to be in them 
if you're going to provide VoIP. But the other side is 
technology protocols--not that it will mean anything to a lot 
of people in the room--but things like MPLS, we're doing Multi 
Protocol Label Switching, it's amazing how when you're sitting 
somewhere remote, your email still gets to you, right? We can 
put in the addressing packet of that data where you are.
    So yes, it would be a requirement of that person, when they 
register their computer, like if it was a brand new Dell, to 
who they are, where they're at; then when they go to a new 
location, to have a pop-up that says, ``We see that you're not 
coming from same IP address,'' or ``You're not coming from the 
same location. You're hitting new routers,'' and it gives you a 
pop-up requirement.
    Service providers can require that. Service providers can 
demand that. So the technology isn't the issue--we heard that 
from Mr. Citron and other people--the issue is how do we make 
it happen? You've got to force it, and you've got to demand it.
    So those tragedies that have happened in multiple states 
aren't a result of technology, they're a result of people being 
unwilling to work together, and Federal statute demanding that 
they work together.
    Senator Burns. Mr. Jergeson, are you pretty happy with the 
build-out and the progress that's being made in the wireless 
communications in this state?
    Mr. Jergeson. No, I wouldn't say that I'm particularly 
happy so far. There's been a lot of build-out. But when you 
think of my PSC district, you can drive a lot of miles between 
Grassrange and Circle, and not have cell phone service; and 
just because it's a sparsely populated area doesn't mean that 
people there who are concerned about the ability to 
communicate, particularly in emergencies or family matters, not 
having coverage, they ought to be able to have coverage.
    We're working very hard, and some of the providers are 
working very hard, and the approval of ETC status for Midrivers 
Telephone is--their wireless company is probably going to help 
a great deal in the build-out of that service, and as we work 
through those with other providers around the state. But the 
process is slower than I like it at this point.
    Senator Burns. We've kind of identified some of the 
problems, and there are some of the problems that we can work 
on in the legislation and some of them that we can't, the 
application, and on how we force this new service out into 
rural areas, and do a really good job in emergencies such as 
these. I'm a very strong believer in 9-1-1. I've seen it save 
lives, but we also hear some horror stories whenever we start 
talking about locating people.
    Here in Montana, there was one instance in Petroleum 
County, of all counties. We get a 9-1-1 call. It did go to the 
closest responder, which was Lewistown, and they couldn't find 
him, and we lost a life just because of that.
    So that's what we're trying to prevent in this piece of 
legislation. We've identified some of the areas, and I look 
forward to working with all of you to get this legislation 
passed, but also implemented. I think it takes all of us 
working together to implementation.
    The mapping concerns me, the addressing concerns me, 
because that's very important, especially where you have 
communities--Let's go to the Flathead over here in your part of 
the country, Mr. Squires, where you have growth, Missoula 
experiencing great growth, new areas coming up. How do we stay 
ahead of that? And the old folks that have always had the same 
old address, they're not going to change.
    Also our Blackberries. I changed the name of my Blackberry 
to Dr. Pepper. In order to manage my life, I only turn it on at 
ten, two, and four, and then I turn it off. But nonetheless, we 
are living in the age of instant communications. And so I'm 
under the assumption that human nature being as it is, if you 
don't really respond to a problem right away, well, in two 
hours they've already solved it, and they didn't need you 
anyway. But sometimes that is not always the case. But I know 
that people don't like to change addresses, and they're just 
reluctant to change, but they're going to have to. And most of 
them will. But we still have human nature as it is.
    Thank you for your testimony today. I'm going to leave the 
record open for other Senators. If they have questions, you may 
get written questions from this hearing. If you would respond 
both to the Committee and the individual member of the 
Committee, I would appreciate that. And of course, all your 
statements will be made a part of the record. I thank you for 
coming today. It's been very informative to me. We've still got 
a little work to do. I think working together we can get it 
done. Thank you very much. We're adjourned.
    [Whereupon, at 2:53 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
